<html>
<title> - STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
  STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                            FISCAL YEAR 2006

                              ----------                              


                         THURSDAY, MAY 12, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:05 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Mitch McConnell (chairman) 
presiding.
    Present: Senators McConnell, Specter, Gregg, Bennett, 
DeWine, Brownback, Cochran, Leahy, Harkin, Durbin, and 
Landrieu.

                          DEPARTMENT OF STATE

                        Office of the Secretary

STATEMENT OF HON. CONDOLEEZZA RICE, SECRETARY


             OPENING STATEMENT OF SENATOR MITCH MC CONNELL


    Senator McConnell. The hearing will come to order.
    Thank you very much, Secretary Rice, for joining us today.
    We have the chairman of the full committee with us. I 
appreciate your being here, Senator Cochran.
    Today's hearing is really historic in at least one respect. 
Not only is this your debut before this subcommittee, but it is 
also our first-ever hearing since the subcommittee reorganized 
earlier this year to incorporate the Department of State's 
entire operation.
    Let me begin today by commending Chairman Cochran for his 
wisdom and leadership, and not just with respect to the 
committee reorganization. On Tuesday, the Senate gave its 
unanimous approval to the emergency supplemental. Senator 
Cochran deserves the lion's share of the credit in getting this 
important measure to the President in a timely manner. We all 
thank him for that, and certainly the men and women serving in 
Iraq and Afghanistan thank him as well.
    As we consider the President's fiscal year 2006 request, my 
colleagues should keep in mind that we will not succeed as a 
Nation in the global war on terror unless we employ our foreign 
assistance programs as weapons in America's arsenal. This is 
particularly true with respect to front-line states, such as 
the $920 million request for Afghanistan, $698 million for 
Pakistan, $158 million for Indonesia, and $96 million for the 
Philippines. Simply put, as we strengthen the military, police, 
and good governance of these states, we relieve the demands 
upon America's own military and diplomatic resources. Our aid 
runs the gamut from ``hard'' counterterrorism and military 
packages for foreign governments to ``soft'' child survival and 
basic health programs for rural populations. Both are integral 
components of deterring and defeating terrorism.
    As is the case every year, the subcommittee will have 
difficult decisions to make in the weeks and months ahead. 
However, the process of reviewing the $33.6 billion request for 
the State Department and foreign operations is well underway. 
This includes examination of proposed increases above fiscal 
year 2005 funding levels in such accounts as Transition 
Initiatives, Diplomatic and Consular Programs, and the 
Millennium Challenge Corporation, and decreases in others, 
including assistance for Eastern Europe and the Baltic States 
and assistance for the Independent States of the Former Soviet 
Union.
    I want to assure you, Secretary Rice, that we are attuned 
to changing realities around the world, including in such 
regions as Eastern Europe, Central Asia, and the Middle East. 
Under the President's leadership, the march of freedom across 
the globe has been truly impressive, whether in Iraq, 
Afghanistan, Ukraine, or Georgia. Please know you have all of 
our personal commitments to help advance democracy in Egypt, 
Belarus, and the Kyrgyz Republic, among other countries.
    The use of cutting edge technology in this endeavor is 
vital. If you have not already, I would encourage you to become 
familiar with the programs of Voice for Humanity in both Iraq 
and Afghanistan. These outreach activities are reaching 
important segments of those populations, including illiterate 
individuals and women.
    As has become my tradition, let me just close with a couple 
of words on Burma. The situation in that country remains 
absolutely deplorable with democracy leader and Nobel laureate 
Aung San Suu Kyi and her compatriots under continued 
imprisonment. Access to Suu Kyi since the attempt on her life 
in May 2003 has been extremely limited, and I remain gravely 
concerned for her safety. Let me be crystal clear that the 
security and welfare of Suu Kyi is the direct responsibility of 
the SPDC leader Than Shwe.
    Along with several of my colleagues, including Senators 
Leahy and Brownback, I introduced legislation earlier this week 
to renew the sanctions against this repressive regime. 
America's challenge is fairly straightforward. We need to make 
that struggle for freedom in Burma a priority for the world's 
democracies, for multilateral organizations, including the 
United Nations and the European Union, and for Burma's 
neighbors.


                           prepared statement


    As you and I have discussed on several occasions, the ASEAN 
chairmanship is supposed to move to Burma in 2006 with the 
meeting supposedly to occur there. I think that is 
unacceptable. I believe you share my view on that. Hopefully 
that will be a focal point for beginning to genuinely get the 
kind of multilateral cooperation we need to truly squeeze that 
regime.
    [The statement follows:]

             Prepared Statement of Senator Mitch McConnell

    Today's hearing is an historical one. Not only is this your debut 
before this Subcommittee, but it is also our first-ever hearing since 
the Subcommittee reorganized earlier this year to incorporate the 
Department of State's entire operations.
    Let me begin my remarks today by commending Chairman Cochran for 
his wisdom and leadership--and not just with respect to Committee 
reorganization. On Tuesday, the Senate gave its unanimous approval to 
the emergency supplemental bill and Senator Cochran deserves the lion's 
share of credit in getting this important measure to the President in a 
timely manner. He has the thanks of a grateful nation, particularly our 
men and women serving in Iraq and Afghanistan.
    As we consider the President's fiscal year 2006 request, my 
colleagues should keep in mind that we will not succeed as a nation in 
the global war on terror unless we employ our foreign assistance 
programs as weapons in America's arsenal. This is particularly true 
with respect to front-line states, such as the $920 million request for 
Afghanistan, $698 million for Pakistan, $158 million for Indonesia, and 
$96 million for the Philippines. Simply put, as we strengthen the 
military, police and good governance of these states, we relieve the 
demands upon America's own military and diplomatic resources. Our aid 
runs the gamut from ``hard'' counterterrorism and military packages for 
foreign governments to ``soft'' child survival and basic health 
programs for rural populations. Both are integral components of 
deterring and defeating terrorism.
    As is the case every year, the Subcommittee will have difficult 
decisions to make in the weeks and months ahead. However, the process 
of reviewing the $33.6 billion request for the Department of State and 
foreign operations is well underway. This includes examination of 
proposed increases above fiscal year 2005 funding levels in such 
accounts as Transition Initiatives, Diplomatic and Consular Programs 
and the Millennium Challenge Corporation, and decreases in others, 
including Assistance for Eastern Europe and the Baltic States, and 
Assistance for the Independent States of the Former Soviet Union.
    I want to assure you, Secretary Rice, that we are attuned to 
changing realities around the world, including in such regions as 
Eastern Europe, Central Asia and the Middle East. Under the President's 
leadership, the march of freedom across the globe has been truly 
impressive--whether in Iraq, Afghanistan, Ukraine, or Georgia. Please 
know you have my personal commitment to help advance democracy in 
Egypt, Belarus, and the Kyrgyz Republic, among other countries.
    The use of cutting edge technology in this endeavor is vital. If 
you have not already, I encourage you to become familiar with the 
programs of Voice for Humanity in both Iraq and Afghanistan. These 
outreach activities are reaching important segments of those 
populations, including illiterate individuals and women.
    As has become my tradition, let me close with a few words on Burma. 
The situation in that country remains deplorable, with democracy leader 
and Nobel laureate Daw Aung San Suu Kyi and her compatriots under 
continued imprisonment. Access to Suu Kyi since the attempt on her life 
in May 2003 has been extremely limited, and I remain gravely concerned 
for her safety. Let me be crystal clear that the security and welfare 
of Suu Kyi is the direct responsibility of SPDC leader Than Shwe.
    Along with several of my colleagues--including Senators Leahy and 
Brownback--I introduced legislation earlier this week to renew 
sanctions against the repressive State Peace and Development Council 
(SPDC). America's challenge is fairly straightforward--we need to help 
make the struggle for freedom in Burma a priority for the world's 
democracies, for multilateral organizations (including the United 
Nations and the European Union), and for Burma's neighbors.
    The SPDC's chairmanship of the Association of Southeast Asian 
Nations (ASEAN) looms on the horizon. We must seize that as an 
opportunity to increase pressure on the junta until such time that 
Burma embarks on an irreversible path toward reconciliation and 
democracy.

    Senator McConnell. Let me now turn to my friend and 
longtime colleague on this subcommittee, Senator Leahy, for his 
opening observations, and then we will be happy to hear from 
you, Secretary Rice.

             OPENING STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. Thank you, Mr. Chairman.
    Madam Secretary, I join the chairman in welcoming you on 
your first appearance before this subcommittee.
    I also want to thank the chairman for his continued work on 
these issues. I might say that to both chairmen, but more 
importantly for our longstanding, decades-old friendships.
    We have a lot to cover, Madam Secretary. I want to focus on 
one issue that you and I have spoken about, even before you 
were confirmed, and that is the need for U.S. foreign aid 
programs to be funded at a level that is commensurate with our 
national interests. The President's National Security Strategy 
recognizes the central role of foreign aid. I agree with the 
President on that. His fiscal year 2006 budget request for 
foreign operations, an increase of $3.1 billion over last 
year's level, is good step forward.
    But I also have serious concerns with this year's budget. 
Unfortunately, the President cuts several core foreign aid 
programs. Here are the things cut: funding for child survival 
and health programs, including infectious diseases, cut by $280 
million. The development assistance account is cut by $45 
million. Aid to Russia is cut in half. We even cut our 
contribution to UNICEF, something that seems to work very, very 
well everywhere I go in the world. And there are a number of 
other areas, promoting renewable energy, supporting democracy. 
We could and should do more.
    The programs are cut to pay for a large increase in funding 
for the Millennium Challenge Corporation. You and I discussed 
this a little bit earlier this afternoon. I support the MCC, 
but the President said we would not cut other things to pay for 
it. We had his personal assurance that other programs would not 
be cut to pay for the MCC.
    Again, I continue to support MCC, but the proposed increase 
in funding at the expense of other programs really cannot fly. 
If this year's request is fully funded, a total of $5.5 billion 
will have been appropriated to the MCC. So far, it has awarded 
one compact of $110 million, and that is to Madagascar. 
Madagascar has a population of only 15 million people. We are 
concerned about billions of people.
    I worry about having billions of dollars for this account 
just sitting in the Treasury for years when there are urgent 
needs, to promote democracy, stop childhood diseases, stop the 
deaths of millions of children between the time of birth and 2 
years old, who die of diseases that children in this country 
are immunized against.
    Your being here today is very important. I thank you for 
that. I know how busy your schedule is.
    But you have to really fight for this budget. The House 
allocation for the Foreign Operations Subcommittee is $2.5 
billion below the President's request. This creates a real 
problem for Senator Cochran, Senator McConnell, and for me. You 
have got to fight and the President has got to use the bully 
pulpit to fight for more. I know there are a lot of things on 
your mind, but these are the things that can make us safer as a 
Nation, but also respond to the fact that as the wealthiest, 
most powerful Nation on earth, we have a moral responsibility. 
We are blessed with so much. We will not stay blessed that long 
if we do not return it.
    I know that dealing with the Congress is not always 
politically rewarding. Sometimes it is not even fun, but Madam 
Secretary, you have to do it.
    Even if we got every single cent that has been required, we 
are still talking about only 1 percent of the Federal budget. 
We want to use our great wealth and our blessings to respond to 
global poverty, international terrorism, everything else. One 
percent.
    The President's budget is a positive first step. I say that 
as a member of the other party. But Democrats and Republicans 
work very closely together up here. Senator McConnell and I 
have. We try to protect this budget. We will keep on trying to 
do it, but help us. Help us get the money. A lot of people 
around the world see this as the face of our moral leadership.
    Thank you, Mr. Chairman.
    Senator McConnell. Thank you, Senator Leahy.
    The way we will proceed is we are going to have a short 
statement from the chairman of the full committee, then your 
statement, Secretary Rice, and then questions in order of 
arrival. Senator Cochran.

               OPENING STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, I am pleased to join you in 
welcoming Dr. Rice to this committee hearing. It has been a 
pleasure working with the Secretary and White House officials 
as well on the supplemental appropriations bill, which the 
President has now signed. I look forward to continuing that 
relationship as the committee considers the fiscal year 2006 
budget request for the Department of State.
    The President has an important foreign policy agenda, which 
includes an emergency plan for AIDS relief, promoting global 
democracy, assisting developing countries, and reducing 
barriers to free trade.
    Madam Secretary, the committee appreciates your leadership 
as Secretary of State and your assistance in identifying our 
foreign policy priorities. We thank you for the excellent work 
you are doing in our Nation's behalf.
    Thank you, Mr. Chairman.
    Senator McConnell. Thank you, Chairman Cochran.
    Secretary Rice, we will be happy to put your full statement 
in the record, if you have one, and go right ahead.

               SUMMARY STATEMENT OF HON. CONDOLEEZZA RICE

    Secretary Rice. Thank you very much, Mr. Chairman. I would 
like to proceed as follows, with the committee's forbearance. I 
have a statement that I would like to make about another matter 
first. I have a longer statement, which I would like to enter 
into the record and perhaps just make a few comments about it 
so that we have maximum time for questions.
    Senator McConnell. That will be fine.

                       RESPECT FOR THE HOLY KORAN

    Secretary Rice. Mr. Chairman, before I begin my actual 
testimony, I want to speak directly to Muslims in America and 
throughout the world.
    Disrespect for the Holy Koran is not now, nor has it ever 
been, nor will it ever be tolerated by the United States. We 
honor the sacred books of all the world's great religions. 
Disrespect for the Holy Koran is abhorrent to us all.
    There have been recent allegations about disrespect for the 
Holy Koran by interrogators at Guantanamo Bay and that has 
deeply offended many people. Our military authorities are 
investigating these allegations fully. If they are proven true, 
we will take appropriate action.
    Respect for the religious freedom of all individuals is one 
of the founding principles of the United States. The protection 
of a person's right to worship freely and without harassment is 
a principle that the Government and the people of the United 
States take very seriously. Guaranteeing religious rights is of 
great personal importance to the President and to me.
    During the past few days, we have heard from our Muslim 
friends around the world about their concerns on this matter. 
We understand and we share their concerns. Sadly, some people 
have lost their lives in violent demonstrations. I am asking 
that all our friends around the world reject incitement to 
violence by those who would mischaracterize our intentions.
    Thank you very much, Mr. Chairman and members of the 
committee.
    As I said, I have a longer statement that I would like to 
place in the record, but I would just like to make a few 
highlights.

                          PROMOTING DEMOCRACY

    This is indeed an extraordinary period, and I think 
everyone has spoken to that. It is a time that I think is 
unlike any other since perhaps the end of World War II when the 
United States took on the mantle of creating a stable and 
democratic Europe, a Europe at that time, that was divided in 
half but eventually became whole and free and at peace. We 
learned from that experience that if we are sound in our 
diplomacy and if we are sound in our values about democracy, 
that indeed we are safer and more secure because as democracy 
goes forward and prospers, the United States is indeed safer 
and secure. When democracy is in retreat, freedom is in 
retreat, then we are more vulnerable. We learned that in a very 
graphic and difficult way on September 11.
    The President has said that the only way to deal with the 
ideologies of hatred that we face in the world now is to 
present the world with the antidote to that, which is the 
spread of liberty and freedom. I would just like to echo 
something that the chairman said, which is that indeed we are 
watching remarkable events around the world. Who could not be 
impressed with the Rose Revolution in Georgia or the Orange 
Revolution in Ukraine or the Cedar Revolution in Lebanon or 
with Iraqis and Afghans voting in large numbers against all 
odds?
    But I think that we all recognize that times of challenge 
and opportunity also require the very hardest work and the very 
greatest concentration. What we hope to do at the State 
Department is to employ the very fine men and women of the 
Foreign Service, the Civil Service, and foreign service 
nationals in that cause.

       EQUAL IMPORTANCE OF STATE AND FOREIGN OPERATIONS REQUESTS

    The budget before you attempts to do several things. First 
of all, I just want to make the point that we must maintain a 
balance of resources between State and foreign operations. The 
diplomatic platform that we have out there, the people, our 
ability to operate in the field, our facilities, is the 
platform from which we conduct our diplomacy. We are especially 
concerned that our people will have the training that they 
need, the technology that they need, and that they will also 
have the facilities that they need, and the security that they 
need.
    In that regard, I would like to thank those who worked so 
hard on the supplemental. I know this was not an easy matter, 
but the Baghdad embassy, especially, is going to be very 
important to the safety and security and well-being of our 
people, and I want to thank you for your hard work on that.
    We are also, of course, pursuing a number of important 
strategic directions. In the global war on terrorism, we think 
very often of what our military is doing in the mountains of 
Afghanistan or along the Afghan/Pakistani border. We think of 
our men and women in uniform and what they are doing in the 
Baghdad Sunni Triangle. But we also need to think of the 
important role that our foreign assistance plays in our 
partnerships with the front-line states of Afghanistan and Iraq 
and Pakistan and Jordan and other states in the war on 
terrorism.
    What we are really doing in the support that we provide for 
these states is to allow them to become really active and 
effective warriors in the war on terrorism, and we are much 
better when we are fighting side by side with those who have 
everything to lose in the war on terrorism like the Pakistanis 
and the Afghans and the Iraqis of the world. If you just go 
back a few years, it is remarkable to think of the array of 
states that are now fighting with us in the Global War on 
Terrorism. We need to support them.
    This budget supports them in a very important way with 
foreign assistance. I think we just need to keep in mind that 
this is strategic assistance. We tend to think of foreign aid. 
This is strategic assistance that makes us more effective also 
in the global war on terrorism.
    We, of course, are trying to pursue the opportunities for 
democracy that are presenting themselves to us, it seems almost 
daily, in the Middle East where I will submit to you and I 
promise and commit to you that we are actively beginning now to 
look hard at our public diplomacy efforts in the Middle East to 
really replace the ideologies of hatred, the misinformation 
about the United States, with effective messages about who we 
are and what we are trying to do.
    But, of course, there are still many places that require 
our attention, and I would like to thank Senator McConnell for 
putting a spotlight in the supplemental on Belarus, the last 
dictatorship in Europe. I had a chance to meet with some of the 
civil society activists from Belarus. They are really people 
who look at what happened in Ukraine, look at what happened in 
Georgia, and say, why not here? It will come in time because 
these are universal values and ultimately they will triumph. 
But we have to stand with people in places like Belarus, and in 
places like Burma, to let them know that at least the United 
States is with them.
    We are also trying to improve through this budget our 
ability to respond to the tremendously fluid situations in 
which we find ourselves. You will note that in this budget 
there is a $100 million request for a conflict response fund. 
Very often between budget cycles, we have to borrow money from 
accounts and then try to pay it back because things happen that 
we did not expect. I can give you many examples, Liberia, 
Haiti, positive examples like Ukraine, and we want to be able 
to be more responsive to those kinds of emergency situations.
    We are also pursuing, at the same time that we pursue the 
democratization of places like the Middle East and remaining 
places in Europe, a very active agenda for the countries that 
still need to find their way out of poverty and in to greater 
prosperity. Indeed, the real challenge of many places, for 
instance, in our neighborhood, like Latin America, is to take 
what are already very strong democratic traditions now, very 
strong democratic impulses to strengthen those institutions and 
to make democracy begin to pay off for the people. We have seen 
a lot of turbulence in Latin America over the last couple of 
years because people are getting restless and are beginning to 
wonder if democracy will pay off.

                        TRADE AGENDA, CAFTA VOTE

    I want, in that regard, just to draw everyone's attention 
to the importance of our trade agenda in providing opportunity 
for countries, particularly in this region. In that regard, we 
will soon have an important vote on CAFTA. The Central American 
presidents were just here today with the President. They will 
tell you that this is a matter for them that is essential to 
their continued existence as democratic states. They are being 
challenged by ``populists'' across the board. In a place like 
Nicaragua, for instance, that challenge is coming from an old 
foe, the Sandinistas. We do not want to abandon the playing 
field in Central America and in Latin America to a ``populism'' 
of a kind that would take us back to the 1980's. Having gone 
there once, let us not go there again. And so I just call to 
your attention the importance of the trade agenda and of CAFTA 
in particular.
    Finally, as Senator Leahy has noted, America is a country 
of great strength. It is a country of great values, but it is 
also a country of great compassion. We have tried very hard to 
let people who are still in poverty, people who are in need, 
people who face disease or humanitarian disaster, know that the 
United States will be there for them.

                        PEACEKEEPING OPERATIONS

    We are working on any number of conflicts in the world, 
Liberia, the Democratic Republic of the Congo, Haiti, and we do 
it through peacekeeping and through our ability to support 
others in peacekeeping operations. I just ask you to help with 
those missions with needed funds.
    Of course, we have a major effort in disease alleviation 
through the President's emergency program for AIDS and other 
communicable diseases.

                         DEVELOPMENT ASSISTANCE

    Finally, let me speak to a point that Senator Leahy made 
which is about development assistance. We have, in this 
administration, increased development assistance by two times, 
twice since we have been in office over the last 4 years, and 
it is because the President believes that that doubling of 
development assistance represents the commitment that we have 
to helping those who need to come out of poverty.
    We do it recognizing, however, that we have had a long 
history of development assistance that did not do the job. It 
was very often wasted, and that was because too often 
development was not seen as a two-way street. Yes, there are 
responsibilities to make resources available, but there is also 
the responsibility of the recipient country to govern wisely, 
to govern transparently, to govern accountably, and to invest 
in the health and well-being of their people.

                      MILLENNIUM CHALLENGE ACCOUNT

    The design of the Millennium Challenge Account was to do 
exactly that. It was to make a compact with the recipient 
country that any program monies would be given to a recipient 
that was planning to govern wisely and that had a record of 
doing that and fighting corruption.
    The request this year for $3 billion for the Millennium 
Challenge Account anticipates the fact that while only one 
compact has been signed, and that is with Madagascar, that we 
are seeking to conclude compacts with 10 more countries by the 
end of 2005. Those countries include Honduras, Ghana, 
Nicaragua, Senegal, Mozambique, Sri Lanka, Armenia, and 
Georgia.
    Let me just close by saying one word about Georgia. The 
pictures that you saw from Georgia were the pictures in Freedom 
Square, which were extraordinary. It was especially 
extraordinary for me as an old Soviet specialist to stand in 
this former Soviet republic and hear the Georgian people sing 
their long-banned Georgian national anthem and then to sing the 
American national anthem. It showed what our partnership means 
with small countries that are willing to take risks for 
democracy.

                           PREPARED STATEMENT

    But what they mostly wanted to talk about, in addition to 
problems that they might have with their big neighbor, was 
their Millennium Challenge program because they believe that if 
they can get this compact finished, it is going to make a huge 
difference in their ability to complete infrastructure, and to 
have energy independence. They have made tremendous inroads in 
terms of corruption. I think that what we are beginning to see 
is that when we have an incentive out there like the Millennium 
Challenge Account, people are responsive to it. So I ask you to 
think about where we are going with the Millennium Challenge 
Account. I think it is one of the great innovations in 
development assistance and it helps to show the heart of 
America.
    So thank you very much.
    [The statement follows:]
              Prepared Statement of Hon. Condoleezza Rice
    Thank you, Chairman McConnell, Mr. Leahy, Honorable Members of the 
Committee, I appreciate the opportunity to address the Committee at 
this time of challenge, hope and opportunity for America, and for the 
world. And I look forward to working with the Congress to build a 
strong bipartisan consensus behind America's foreign policy and to 
ensure that the men and women of American diplomacy have the resources 
they need to conduct their vital mission.
    The President's fiscal year 2006 International Affairs Budget for 
the Department of State, USAID and other foreign affairs agencies 
totals $33.6 billion.
    I would like to take this opportunity to thank the Members of this 
Committee for their support and leadership in the passing the fiscal 
year 2005 Emergency Supplemental. This urgently needed funding will 
support immediate political, economic, humanitarian, and operational 
needs that will allow us to meet new challenges--and seize new 
opportunities--to build a better, safer, and freer world.
    The supplemental international affairs funding of $5.8 billion will 
ensure that we are able to respond speedily and effectively to the 
needs of our steadfast coalition partners in the War on Terror, to 
newly elected governments in Afghanistan, Iraq, the Palestinian 
territories and Ukraine who need our stabilizing assistance to move 
forward with reforms, to those seeking democracy assistance in Belarus 
and Lebanon, and to the men, women and children uprooted by war, as in 
Sudan, or swept up in natural disasters, such as the recent East Asia 
tsunami. The supplemental funds will also cover the extraordinary 
security and support costs of operating our current embassy in Baghdad, 
and the construction of a secure new embassy compound for our mission, 
as well as $60 million for the security and operations of our embassy 
in Kabul.
    Now, if I may, Mr. Chairman, I will begin my testimony on the 
fiscal year 2006 Budget Request with an overview of President Bush's 
foreign policy mission, which we seek this Committee's support to 
advance.
    In the long term, as President Bush said, ``The only force powerful 
enough to stop the rise of tyranny and terror, and replace hatred with 
hope, is the force of human freedom.'' Through diplomacy, the United 
States can create new possibilities for freedom and fresh hope across 
the globe. We must deal with the world as it is, but we do not accept 
it as it is. In places like Afghanistan and Ukraine, Iraq and the 
Palestinian territories, Lebanon and Georgia, people's desire for 
freedom and a better future is redefining what many thought possible in 
these societies.
    President Bush has charged the men and women of the Department of 
State with helping to create a balance of power in the world that 
favors human liberty, and that is exactly what we are doing. Together 
with our democratic partners around the world, we are advancing a 
forward strategy of freedom.
    Our cooperation with international partners is dramatically evident 
in Afghanistan, where last month I saw first-hand the progress that 
country has made towards stability, reconstruction, and democracy. The 
Presidential election last year was an inspiration to the world. Next 
September, Afghanistan's citizens, men and women alike, will again go 
to the polls, this time to elect a parliament. Afghanistan still faces 
many challenges, including the narcotics trade that could undermine its 
strides on so many fronts. We are committed to a comprehensive counter-
narcotics strategy and a long-term reconstruction strategy because we 
believe in the future of a new, democratic Afghanistan--an Afghanistan 
that is no longer a haven for terrorists and tyrants, but a partner in 
security and freedom.
    To build on the positive momentum in Afghanistan, President Bush 
has requested nearly $1.1 billion in total U.S. funding, including $956 
million in foreign assistance support. This money will be used to 
invest in security, health, education, clean water and free market 
infrastructure, which together create conditions for sustained growth, 
opportunity, and to continue the fight against drugs.
    This is also a very important year for Iraq, as the Iraqis write 
their constitution and hold national elections in December. When 
President Bush traveled to Europe in February, he and his counterparts 
not only turned the page on Iraq, they wrote a new chapter. All 26 NATO 
allies are now contributing to the NATO Training Mission in Iraq. The 
European Union announced its willingness to co-host an international 
conference with the United States to encourage and coordinate 
international support for Iraq. We have followed up on this initiative 
with the European Commission, the European Parliament, EU Member 
States, other countries around the world, and the Iraqi Government. 
Today, in the midst of a tough security situation, Iraqis at all 
levels--from the town council in Fallujah to the President of the 
country--are engaging in the democratic process and they need and 
deserve our support.
    For Iraq, President Bush has requested $457 million of support for 
fiscal year 2006, including $360 million to continue work already begun 
under the Iraq Relief and Reconstruction Fund. These monies would be 
targeted towards helping the new Iraqi leadership create a functioning 
democracy and a justice system governed by the rule of law. This 
funding also will help the Iraqi government deliver basic services to 
its people, collect revenues, generate jobs and develop a free market 
system capable of joining the global economy.
    We and our democratic allies are putting the power of our 
partnership to work not only in Afghanistan and Iraq, but all across 
the Broader Middle East and North Africa. Efforts to encourage 
democratization, economic reform, the growth of civil society and 
opportunity for all through education are critical to shaping a stable 
and prosperous future for this strategically important region. 
Recognizing this, through the G-8 we have established the Forum for the 
Future--a new partnership between the democratic world and nations of 
this vast region, and we are committed to ensuring that the Forum plays 
a central role in advancing indigenous reform efforts in this vast 
region extending from Morocco to Pakistan.
    In early March in London, I participated in an important conference 
of major donors, including regional states, to help the Palestinian 
people advance their political, security and economic reforms and build 
infrastructure for self-government. The World Economic Forum in Jordan 
is expected to give further impetus to political and economic reform in 
the region.
    The path of reform in the Broader Middle East will be difficult and 
uneven. Freedom's work is the work of generations. But it is also 
urgent work that cannot be deferred.
    From Morocco to Bahrain to Afghanistan, we are seeing new 
protections for women and minorities, and the beginnings of political 
pluralism. We have seen an opening toward broader participation in the 
first-ever municipal elections in Saudi Arabia. President Mubarak 
announced Egypt's intention to open up competition in Egypt's 
presidential elections. In the Palestinian territories and in Iraq we 
have witnessed remarkably free and successful elections. And in Lebanon 
we have witnessed the dramatic popular demonstrations for freedom and 
against the continued manipulation of the government and politics by 
outsiders.
    The will of the people of Lebanon to make their own decisions and 
throw off the mantle of oppression is clear. The people of Lebanon have 
an enormous opportunity to bring about peaceful change with elections. 
We and many others support them by insisting on the withdrawal of all 
foreign forces from Lebanon, as required by U.N. Security Council 
Resolution 1559, and by supporting free and fair elections.
    In support of these hopeful trends across the region toward freedom 
and democratic government, the fiscal year 2006 budget request proposes 
enhanced funding for diplomatic and assistance activities in the Middle 
East, North Africa and other countries with significant Muslim 
populations. The request includes $120 million for the Middle East 
Partnership Initiative for reform, $40 million for the National 
Endowment for Democracy to expand efforts to promote democracy in the 
Broader Middle East and North Africa region, $180 million for Muslim 
outreach through educational and cultural exchanges, and increases for 
a wide range of other public diplomacy and broadcasting initiatives 
geared toward Muslim publics, particularly young people.
    Of course, the process of reform in the broader Middle East is not 
detached from what must happen between the Israelis and Palestinians 
toward realizing President Bush's vision of an independent Palestinian 
state living side-by-side in peace with the State of Israel.
    The Palestinian elections, and the Israeli withdrawal plan for Gaza 
and parts of the West Bank, have created a unique opportunity for 
peace. In fact, when I met with both Prime Minister Sharon and 
President Abbas they had the same opening line: This is an opportunity 
for peace we must not miss.
    President Bush has announced an additional $350 million to help the 
Palestinians build infrastructure and sustain the reform process over 
the next two years, including the $150 million in the fiscal year 2006 
budget. I'd like to thank the Congress for supporting the President's 
efforts by providing the $200 million included in the fiscal year 2005 
Supplemental. This is an important show of support for President Abbas. 
Our fiscal year 2006 budget request also contains $2.5 billion in 
assistance to Israel, which continues our longstanding strategic 
partnership and supports regional democracy and security.
    Even as we work with allies and friends to meet the great challenge 
of advancing freedom and peace in the broader Middle East and North 
Africa, we will seize other important opportunities to build a world of 
peace and hope.
    For example, the U.S.-led global war on terrorism has put Pakistan 
and India on the same side against extremism. We have de-hyphenated our 
relationship with Pakistan and with India, building strong, independent 
ties with each. At the same time that our relations with India have 
been moving forward we have the best relations with Pakistan that 
perhaps we have ever had, deepening our cooperation with Pakistan in 
the war on terrorism, supporting President Musharraf's modernization 
efforts and the liberalization of Pakistan's economy.
    During my March trip to Pakistan and India, on behalf of President 
Bush I congratulated both countries for the steps they have taken 
toward warmer relations with each other. In Islamabad, I discussed the 
need to chart a democratic path for Pakistan, including the holding of 
national elections in 2007. With India, the world's largest democracy, 
we are cooperating on a global strategy for peace, and on defense, 
energy and growth. A few weeks ago, India's Foreign Minister met with 
President Bush and they discussed ways we might accelerate our 
cooperation still further and we look forward to a July visit by Prime 
Minister Singh.
    The future of Asia is very dynamic. Our alliances and relationships 
in Asia--starting with our critical strategic and economic ties with 
Japan--will be profoundly important in creating a stable, prosperous, 
democratic region and world.
    Much of Asia's dynamism comes from an emerging China whose economy 
has become an engine of regional and global growth. This new factor in 
international politics requires us to incorporate China more fully into 
the global system.
    We are working with China in context of its WTO commitments to 
address outstanding concerns related to that ongoing integration 
effort, particularly on issues such as intellectual property rights, 
financial sector reform and improved market access. We believe that we 
and our allies and friends can help foster an environment in which a 
rising China acts as a positive force. We want China as a global 
partner, able and willing to match its growing capabilities to its 
international responsibilities. And we believe that China must 
eventually embrace some form of open, genuinely representative 
government if it is to realize the full talents of the Chinese people 
and fully reap the benefits and meet the challenges of a globalizing 
world.
    Last month, I participated in the NATO Ministerial meeting, held 
for the first time in Lithuania, one of NATO's newest members. I just 
accompanied President Bush on his visit to another new NATO ally, 
Latvia, where he had a very positive and constructive meeting with the 
leaders of Latvia, Lithuania and Estonia. The expansion of the North 
Atlantic alliance to 26 members including the three Baltic states marks 
the further advance of democracy and freedom throughout Europe.
    From Riga, we stopped in Maastricht, Netherlands, to pay tribute to 
those who served and sacrificed in the Second World War and to those 
who are standing with us today in defense of democracy and freedom in 
places like Iraq and Afghanistan.
    From The Netherlands, the President and I traveled to Russia to 
mark the 60th anniversary of the end of World War II. The visit and 
ceremonies in Moscow were an opportunity to thank those who so bravely 
fought for the victory over fascism. President Bush continued his 
dialogue with President Putin about U.S.-Russian relations and about 
Russia's future. In his recent State-of-the-Union address, President 
Putin stressed his commitment to democracy and we look forward to 
seeing how his words get translated into deeds. President Bush also met 
with civil society leaders and emphasized that a democratic, vibrant, 
prosperous Russia is in everyone's interests.
    We then went to Georgia, where we witnessed the enthusiasm of a new 
democracy first hand. And President Bush underscored to President 
Saakashvili our support for the independence, territorial integrity and 
strengthening of that young democracy.
    The seeds of democracy in Georgia, which truly blossomed from the 
Rose Revolution of November 2003, served as an inspiration a year later 
to those in Ukraine who refused to accept a stolen election. The 
political transformation within Ukraine has meant a new dynamic in 
Ukraine's relationship with the United States and our allies. At the 
NATO Ministerial last month, the alliance extended an invitation to 
Ukraine to begin an Intensified Dialogue on Membership Issues, raising 
NATO's cooperation with Ukraine to a new level. All of us welcomed the 
new leader of Ukraine, Viktor Yushchenko, to Washington. We recognize 
that he has a lot to do to reform his country, and we have a strong 
interest in ensuring the success of a democratic Ukraine.
    In Kyrgyzstan, the change of government precipitated by popular 
discontent over election fraud and government corruption will be 
followed by new presidential elections July 10. These elections offer 
Kyrgyzstan the opportunity to establish new democratic benchmarks for 
Central Asia. Working closely with our OSCE partners, we will provide 
assistance to ensure the elections are conducted freely and fairly. 
Beyond the elections, we look forward to working with a legitimately 
elected government to establish the basis for prosperity and stability 
for Kyrgyzstan and the region.
    Several weeks ago, I visited Brazil, Colombia, and El Salvador and 
took part in the Community of Democracies Meeting in Santiago, Chile. 
Our efforts in the hemisphere, in Africa and across the developing 
world are designed to help strengthen fellow democracies so that they 
can deliver the benefits of democracy to their citizens and help them 
escape poverty. Our policy is also guided by the principle that leaders 
who are elected democratically have a responsibility to govern 
democratically. We are working in partnership with developing nations 
to fight corruption, instill the rule of law, and create a culture of 
transparency that will attract the trade and investment crucial to 
poverty reduction.
    At the Monterrey Summit in 2002, all nations agreed that economic 
growth is essential to fighting poverty, and that development 
assistance works best when it goes to countries that adopt growth-
oriented policies. This concept underlies the President's revolutionary 
Millennium Challenge Account initiative. We seek $3 billion for the 
third year of the Millennium Challenge Corporation, which helps 
countries that govern justly, adopt sound economic policies and invest 
in the welfare of their people. We also seek $2.4 billion in 
development, child survival and health assistance. The fiscal year 2006 
Budget exceeds the President's 2002 commitment for overall growth in 
core development assistance by requesting a total of $19.8 billion, 
$8.2 billion more than in 2002.
    We will also help countries enhance their capabilities to protect 
their citizens from traffickers and terrorists.
    Our fiscal year 2006 request includes $735 million for the Andean 
Counter Drug Initiative to consolidate gains made in recent years in 
eradication, interdiction and alternative development.
    We are requesting $5.8 billion in assistance to our front-line 
partners in the global war on terror. Through the provision of 
equipment and training, this assistance will help give military, police 
and other security forces the tools they need to destroy terrorist 
cells, disrupt terrorist operations, strengthen border controls, and 
prevent attacks. This assistance will also help advance economic growth 
and democratic reform, providing new opportunities for their citizens 
and addressing the hopelessness that terrorists seek to exploit. The 
request includes $698 million for Pakistan; $559 million for Colombia; 
$462 million for Jordan; $213 million for Kenya; and $159 million for 
Indonesia.
    When they engage effectively, multilateral institutions can 
multiply the strength of freedom-loving nations. We are requesting $1.3 
billion in support for the multilateral development banks, with which 
our bilateral assistance missions partner abroad to reinforce effective 
economic reform strategies. In addition, we are seeking $100 million in 
debt relief for the Heavily Indebted Poor Countries initiative, an 
effort we are pursuing in concert with the G-7, other key lending 
countries, and the international financial institutions. We are 
requesting nearly $1.3 billion for U.S. obligations to 47 international 
organizations, including the United Nations, and a little over $1 
billion to pay projected U.S. assessments for U.N. peacekeeping 
missions. And we are seeking $114 million to enhance the peacekeeping 
capabilities of non-U.N. forces, with a particular focus on Africa.
    We are encouraged by the African Union's leadership in addressing 
conflicts across the continent, specifically its mission in Darfur. The 
African Union military commanders in Darfur are doing vital work in 
providing security for millions of displaced people. We welcome the 
AU's decision to double the size of its Darfur mission to enhance its 
ability to protect civilians, and we appreciate your help through the 
Supplemental to support this expanded mission. We fully appreciate the 
urgency of the situation and we encourage the AU's consultations with 
NATO on potential logistical assistance that would enable the AU forces 
to expand quickly and sustain their operations.
    Meanwhile, we are doing all we can to ensure that the displaced 
people get the basic humanitarian supplies they need until such time as 
secure conditions are established that enable them to return to a 
normal life. And we are pressing for prompt implementation of the 
North-South Comprehensive Peace Agreement, because that accord creates 
a possible political framework for resolving conflicts in Darfur and 
other regions of Sudan. At the same time, we are working to orchestrate 
an international message to the Government of Sudan: They are 
responsible for conditions in Darfur and must cooperate to stop the 
killing and create a path for peaceful reconciliation.
    Thanks to Congress's strong backing, last month at the Oslo Donors' 
Conference to support the peace agreement, we were able to pledge $853 
million to help Sudan in fiscal year 2005. Most recently in the 
Supplemental, Congress provided additional support to help meet the 
needs of implementing the Comprehensive Peace Agreement in the south of 
Sudan and keep humanitarian supplies flowing to Darfur. I thank you for 
your generosity and look forward to further strong congressional 
support for Sudan through the fiscal year 2006 Budget. Given the 
enormity of the humanitarian, security, and political challenge, your 
continued backing is critical.
    Sudan is but one, terrible example of the broader challenge we 
face. Chaos, corruption and cruelty reign can pose threats to their 
neighbors, to their regions, and to the entire world. And so we are 
working to strengthen international capacities to address conditions in 
failed, failing and post-conflict states. President Bush has charged us 
at the State Department with coordinating our nation's post-conflict 
and stabilization efforts and we are asking for $24 million in 
operating funds for the new Office of the Coordinator for 
Reconstruction and Stabilization housed in the Department. I also 
appreciate the $7.7 million Congress has provided in supplemental funds 
for start-up and personnel costs for the Office of the Coordinator. The 
fiscal year 2006 budget proposes a $100 million Conflict Response Fund 
to quickly address emerging needs and help deploy trained and 
experienced civilian personnel immediately to an unstable region.
    The United States must stay at the forefront of the global campaign 
against HIV/AIDS, providing half of the global assistance to fight this 
scourge. The President is requesting $3.2 billion in total U.S. funding 
for care, treatment and prevention efforts. We will demonstrate the 
compassion of the American people in other ways as well. Through our 
continued support of international and non-governmental organizations, 
we will ensure that America remains the world's most generous food and 
non-food humanitarian assistance provider. We seek $3 billion in food 
aid and famine relief and non-food humanitarian assistance, including 
support for fragile states.
    In all of these endeavors, the primary instrument of American 
diplomacy will be the dedicated men and women of the Department of 
State. We would welcome your help as members of the full committee in 
ensuring that our people are well equipped for the challenges ahead in 
terms of training, technologies and safe workplaces. Secretary Powell 
and his team made important progress in these areas and we must build 
on the foundation they established.
    We are requesting $1.5 billion for security-related construction 
and physical security and rehabilitation of U.S. embassies and 
consulates, and $690 million to increase security for diplomatic 
personnel and facilities. We have a solemn obligation to protect the 
people of our diplomatic missions and their families, who serve at our 
far-flung posts in the face of a global terrorist threat.
    We must strengthen the recruitment of new personnel. We are seeking 
$57 million for 221 new positions to meet core staffing and training 
requirements. And as we seek out new talent, we also seek to further 
diversify our workforce in the process. We send an important signal to 
the rest of the world about our values and what they mean in practice 
when we are represented abroad by people of all cultures, races, and 
religions. Of course, we also must cultivate the people we already have 
in place--by rewarding achievement, encouraging initiative, and 
offering a full range of training opportunities. That includes the 
training and support needed to make full use of new technologies and 
tools, and we are asking for $249 million for investment in information 
technology.
    Public diplomacy will be a top priority for me, as I know it is for 
this Committee, and the fiscal year 2006 request includes $328 million 
for activities to engage, inform and influence foreign publics. America 
and all free nations are facing a generational struggle against a new 
and deadly ideology of hatred. We must do a better job of confronting 
hostile propaganda, dispelling dangerous myths, and telling America's 
story. In some cases, that may mean we need to do more of what we are 
already doing, and in other cases, it may mean we need new ways of 
doing business.
    If our public diplomacy efforts are to succeed, we cannot close 
ourselves off from the world. We are asking for $931 million to improve 
border security and for an increase of $74 million over fiscal year 
2005 for educational and cultural exchange programs, bringing the total 
to $430 million in fiscal year 2006. We will continue to work closely 
with the Department of Homeland Security to identify and prevent 
terrorists and other adversaries from doing harm, even as we maintain 
the fundamental openness that gives our democracy its dynamism and 
makes our country a beacon for international tourists, students, 
immigrants, and businesspeople. We will keep America's doors open and 
our borders secure.
    Mr. Chairman, Members of the Committee, this time of global 
transformation calls for transformational diplomacy. More than ever, 
America's diplomats will need to be active in spreading democracy, 
reducing poverty, fighting terror and doing our part to protect our 
homeland. And more than ever, we will need your support if we are to 
succeed in our vital mission for the American people.
    Thank you, Mr. Chairman. I would be pleased to answer any questions 
that you and the other distinguished Committee Members may have.

                            BURMA SANCTIONS

    Senator McConnell. Thank you, Madam Secretary.
    I want to ask you one quick question just for the record, 
and then I am going to turn to Iran. I assume you support the 
renewal of sanctions, including an import ban and visa 
restrictions against the military junta in Burma.
    Secretary Rice. Absolutely.

                                  IRAN

    Senator McConnell. We will be moving forward with that this 
year.
    Looking at the morning paper, it certainly reminds us again 
of the Iranian challenge. The article in the Washington Post 
that I read discussed the task undertaken by the British, the 
French, and the Germans and the rather stern statement that 
they have issued to the Iranians. I know that it must have come 
up when you and the President were with President Putin in 
Russia.
    What is the state of play of the whole Iranian nuclear 
issue? What can you tell us publicly about what you discussed 
with President Putin in relation to the Russians' relationship 
to Iran? In short, give us an update on where we are.
    Secretary Rice. Certainly. Well, as you know, Senator, we 
have been supporting the EU-3 negotiations with the Iranians, 
and we have called on the Iranians to take advantage of the 
opportunity that the Europeans have given them to demonstrate 
that they are prepared to live up to their international 
obligations. That means that the Iranians cannot be allowed to 
develop the technologies that would lead them to be able to 
build a nuclear weapon under cover of a civilian nuclear 
program.
    We have excellent cooperation with the Europeans on this. 
The Iranians have been making various threats publicly. We are 
following it very closely, but it is our hope that the Iranians 
are going to continue these negotiations because it is really 
the only reliable way for them to really be a part of the 
international system and to be accepted there.
    The Security Council always remains an option should the 
Iranians not live up to their obligations, but we are still 
hopeful that they will recognize where they are.
    With regard to the Russians, we have been in very close 
contact with them. While we do not believe, Senator, that the 
Iranians need a civilian nuclear power program, given their 
abundance of hydrocarbon sources, we nonetheless recognize that 
the Russians, upon agreeing to give them the Bushehr reactor, 
have built in a number of proliferation safeguards that could 
be quite useful. For instance, the Russians have said that they 
would provide fuel, but then there would have to be a fuel 
take-back so that the Iranians would not keep the capability of 
being able to use that fuel to develop nuclear weapons. This 
is, in many ways, very close to a proposal that the President 
made at the National Defense University, that there ought to be 
provision of fuel, but that the transfer of the technologies of 
reprocessing and enrichment should not continue.
    So we are watching the situation. We are in very close 
contact with our allies, but we are hopeful that the Iranians 
are going to take the deal that is being given to them.

            RUSSIAN TROOPS IN GEORGIA AND ARMENIA/AZERBAIJAN

    Senator McConnell. Turning to another part of your trip, 
could you give us an update of the likelihood of Russian troops 
remaining in Georgia for a long time?
    Also, even though it may not have been on your agenda, I 
have had a longstanding interest in the Armenia/Azerbaijan 
dispute over Nagorno-Karabakh, and the presence of Russian 
troops in Armenia, which the Armenians say is because of their 
concern about the Turks. Nevertheless, is there anything new in 
that area that you could share with us?
    Secretary Rice. Senator, on the Azerbaijan/Armenia/Nagorno-
Karabakh situation, I cannot report that there is anything new. 
But as you know, we had made considerable progress several 
years ago, and it looked like we were going to be able to 
perhaps even resolve the Nagorno-Karabakh issue. We were not 
able to do it at the time. We continue to have the Minsk Group 
that works on this.
    We want to redouble our efforts again to see if we can go 
back and see if we can try and resolve this issue. We have been 
discussing with the Russians the need to deal with what we are 
calling frozen conflicts like Nagorno-Karabakh. I have had 
discussions with my counterpart, Sergei Lavarov. We believe it 
would be a very useful thing. Armenia and Azerbaijan are 
suffering from this conflict, suffering that investment is low, 
suffering that they really cannot stabilize their political 
situations, suffering, we believe, in the presence of foreign 
troops. So we would like very much to try and get this 
resolved, and we will try and redouble our efforts.
    On the Georgian bases, it was very interesting to first 
hear the Russians and then hear the Georgians on this. The 
Russians, as you know, agreed that they would leave these bases 
in Georgia. It has now been a question of when and how. When 
you listen to some, they say that they are actually closing in 
on a deal. Others say maybe they are not so close. But while we 
are not trying to get involved in the details of it in some 
sort of mediator role--that would not be appropriate for us--we 
are really encouraging the Russians to get this done and to 
remove their forces so that Georgia can regain that element of 
their national sovereignty. The Russians say that they intend 
to leave, that it is now just a matter of how and the dates. 
But we are encouraging them very strongly to do it as quickly 
as possible.

                         ABKHAZIA/SOUTH OSSETIA

    Senator McConnell. And finally, what about internal 
Georgian issues like Abkhazia, for example?
    Secretary Rice. Our message to the Georgians about Abkhazia 
and South Ossetia was that, first of all, these cannot be 
resolved by military force, that the United States would not 
support the use of military force to resolve these conflicts. 
There has to be a political solution. The Georgians are talking 
in terms that probably are going to be helpful in places like 
South Ossetia when they talk about greater local autonomy over 
decision-making. But these are part of a territorially 
integrous Georgia.
    So one of the things that the President did during his stay 
there was to have conversations across the region, in Georgia 
as well, about the need to protect minority rights, about the 
need to build multi-ethnic democracies because, if you think 
about it, if each of these separatist regions tries to start 
pulling away, there is not going to be much left of the 
territorial integrity of Georgia. So better for Georgia to have 
a sense of protecting minority rights, protecting the ability 
of people to govern their own affairs locally. But we speak 
very clearly for the territorial integrity of Georgia, and we 
have said that to the Russians as well.

                                 RUSSIA

    Senator McConnell. I am going to sneak in just one final, 
very quick question. I read somewhere that there was some 
suggestion that Stalin might be enjoying a bit of a comeback in 
Russia. Since he was originally, obviously, from Georgia, does 
his name ever come up in Georgia, or is it like he did not 
exist?
    Secretary Rice. It does not really come up in Georgia and 
it does not come up much in Russia either. In fact, despite the 
fact that it was the celebration of the end of World War II, I 
think I saw one poster, kind of old vintage poster, in this 
regard.
    I might just for the committee's sense of it, it was quite 
interesting because the large boulevard Daverska in Moscow was 
decorated with all kinds of banners to the great victory, glory 
to Russia, with a fair amount of advertisement thrown in for 
various cell phone companies and various dressmakers and the 
like. So it was a little bit incongruous for somebody like me.
    Senator McConnell. I think we would all agree Stalin 
deserves no comeback.
    Secretary Rice. Right.
    Senator McConnell. Senator Leahy.

   BALANCING MILLENNIUM CHALLENGE CORPORATION AND FOREIGN ASSISTANCE 
                                FUNDING

    Senator Leahy. Thank you. I find the description 
interesting. I remember my first trip to Russia in 1975 with 
Senator Javits and Senator Hugh Scott, as the Republican leader 
at the Senate at the time, and Senator Hubert Humphrey. There 
have been dramatic changes since those days.
    We discussed the Millennium Challenge. There is support, as 
you understand, for it. We just do not want it to be either/or. 
We want to make sure we maintain the commitments originally 
made, that we are not going to cut child health programs and we 
are not going to cut development programs, we are not going to 
cut programs to eradicate disease, and the other things that 
show the best face of America around the world. We need to 
support the Millennium Challenge and also to keep these other 
commitments.
    I will be the first to agree that not every program works. 
I have voted to get rid of programs that did not work. We have 
an awful lot of programs that do work and need more resources 
to do more.
    A recent New York Times article said the World Bank, the 
IMF, British Prime Minister Blair, and others have called for 
the doubling of aid for the poorest countries. You and I were 
in Davos and we heard Chancellor Brown say similar things. The 
United States has not taken a position. I look at Africa with 
700 million people. It gets about the same amount of aid as we 
give to Iraq with 25 million people. Actually the aid to 
rebuild Iraq is a lot more than we give to the entire world. 
The amount of aid we give is a lot of money, but it is a 
smaller percentage of our gross national income than any donor 
country, I think, except Italy.
    Is this a trend that will continue?
    Secretary Rice. Well, Senator, I would make a couple of 
points. First of all, on what we are actually doing in the 
budget in terms of development assistance and the relationship 
between that and the Millennium Challenge, the development 
assistance request is essentially a kind of straight-line 
request from what we requested last year. As you know, some of 
the decrease is represented by the fact that $275 million for 
Afghanistan and Ethiopia and Haiti and Sudan is now covered 
under something called the transition account. So it is a 
little bit masked there. The development assistance is pretty 
much a straight line.
    But as to the .7 target that people use in terms of 
official development assistance, I think that we believe that 
we should, of course, make resources available, which is why we 
have doubled official development assistance over the last 4 
years.
    Senator Leahy. But if we take out the money for the 
Millennium Challenge, the only way we do it is to take money 
from some of these basic needs. You and I should have a longer 
discussion on this, but that is a real concern. We can make the 
promises. You and I can agree on every one of these programs, 
but if the money is not there, it is like Hotspur and calling 
them from the depths. Anybody can call them, but will they come 
when you call.
    Let me ask you this. Charles Taylor. You and the President 
met with Nigerian President Obasanjo last week.

                             CHARLES TAYLOR

    A lot of us have discussed how to get Charles Taylor before 
the Special Court for Sierra Leone. He is an indicted war 
criminal responsible for the deaths of tens of thousands of 
people. He wants a return to power. He is meddling in the 
affairs of other countries, without going into areas beyond 
what has been in the press. We all know he is.
    Why are we having so little influence getting him to the 
Court? I see Senator Gregg, my neighbor from New Hampshire. He 
and I and other Members of Congress have been urging stronger 
action. We have written letters, Republicans and Democrats. The 
other body has been the same way. This is a despicable, 
horrible person. He is a mass murderer. Why do we not bring him 
to justice and show the rest of the world that this is what 
happens to mass murderers?
    Secretary Rice. Senator, there is no doubt that we believe 
that Charles Taylor should be brought to justice. We have 
communicated that very clearly and strongly to the Nigerian 
Government.
    I would just say I would hope we would step back and look 
at what the Nigerian Government did at the time when we were 
trying to get Charles Taylor out of Liberia so that we could 
end the state of civil war there and begin to move forward. 
President Obasanjo, President Kufuor of Ghana, South African 
President Mbeke, and others went and they actually took him out 
of Liberia, and they did that really on behalf of the 
international community.
    We want to, therefore, work with them in a way that for 
them works for them to get him out of the country and to one of 
the courts. I would not focus just on Sierra Leone.
    Senator Leahy. The longer we take, the more he is 
fomenting. The harder it is going to be. How long can the 
Special Court in Sierra Leone, which is prepared to take him--
how long can it wait?

                        COLOMBIAN PARAMILITARIES

    I am going to have some other questions on the 
demobilization of Colombian paramilitaries, following up on the 
letter that Senator Lugar, Congressman Hyde, Senator Dodd, 
Congressman Lantos, and I sent to President Uribe. We have 
spent billions down there. We were told they were going to cut 
coca production by half. We have eradicated a lot. A lot of 
coca is still cultivated. The price is still the same on our 
streets. We have human rights conditions on our aid. They are 
always certified by the State Department. We have doubts about 
whether they are being met. When you get a group like Senator 
Lugar, Congressman Hyde, Senator Dodd, Congressman Lantos, and 
myself we are crossing the political spectrum here. We really 
are concerned about what is happening in Colombia. I have a 
great deal of respect for President Uribe, but I am concerned 
about what is happening especially with the paramilitaries.
    Senator McConnell. Thank you, Senator Leahy.
    The order will be Senator Gregg, followed by Senator 
Landrieu, and then Senator DeWine. Senator Gregg.
    Senator Gregg. Thank you, Mr. Chairman.
    It is great to have you here, Secretary. It is wonderful to 
have you serving as the Secretary of State. Obviously, you 
follow an individual who did an extraordinary job, but you have 
managed to take his legacy and carry it forward with great 
ability and given us pride as a Nation that you are 
representing us around the world.

               BALANCING STATE OPERATIONS AND FOREIGN AID

    One of the things that has happened here is that we have 
merged the State Department's two functions, the foreign aid 
function with the operational function by bringing it under 
this committee. I guess one of my concerns as the person who 
had jurisdiction under a prior incantation of the operational 
functions is that we not lose sight of the fact that you really 
cannot do a good job in foreign aid unless you maintain the 
strength of your operational side.
    The problem, of course, is it is very easy to raid things 
like the accounts for taking care of getting our embassies up 
to speed, as far as hardening them, the accounts for IT. I 
believe now the State Department has probably the best IT 
program in the entire Government, at least in my experience. 
And various other functions of just day-to-day operations. So I 
hope you will keep an eye out that the great strides which were 
made we do not turn back on.
    One little minor point I would mention is that we had 
initiated an effort not only to get our embassies and 
facilities up to a better standard of security, but we had also 
started an effort to reach out to targets where our children of 
embassy personnel go, schools, especially American schools. 
That initiative was small but it was huge in its impact on 
those schools. They were able to do things relative to 
security, which was important. I hope we will continue that 
initiative.

                     NORTH KOREA, PROGRESS OF TALKS

    On the broader issue, you have to be so conversant in so 
many areas, and you certainly are. Tell us what is happening 
with North Korea and especially what is happening with working 
with China and Japan and South Korea to try to orchestrate an 
effort there that is multilateral to do something.
    Secretary Rice. Well, we continue, Senator Gregg, to try 
with the Chinese, the Russians, the Japanese, and the South 
Koreans to hold a united front that lets the North Koreans know 
that there really is not any option but for them to abandon 
their nuclear weapons programs if they really do wish to be 
integrated in the international system. It has, obviously, its 
ups and downs because the North Koreans tend to threaten. They 
tend to draw attention to themselves with all kinds of 
announcements. But I think that the underlying fact has not 
been altered and that is that all of their neighbors are 
telling them that there is only one way out of this.
    Now, obviously, there are concerns. There are concerns that 
they would try and make something more dramatic like a test. 
You have been reading that people have talked about that. They 
are concerned that there might be proliferation from North 
Korea. Those are all things that we keep in mind and keep an 
eye on. But the key here is to really continue to keep a united 
front on the North Korean program.
    I know that the South Koreans and the Chinese are urging 
the North Koreans to return to the Six Party Talks. That is 
very important, but we want them return to the Six Party Talks 
not just to return to the Six Party Talks, but to actually be 
ready to make a strategic choice about their nuclear weapons 
programs. We have told them security guarantees are available 
to them on a multilateral basis. Some of their neighbors have 
talked about providing them fuel oil under those circumstances. 
They have asked do we understand that they are sovereign. Yes, 
we understand that they are sovereign. So the North Koreans 
have not much to gain by what they are continuing to do, and 
they have quite a bit to gain by coming back to the talks. We 
hope that that logic will eventually prevail.

                      STATE AND FOREIGN OPERATIONS

    If I may, just on the point that you made earlier. I want 
to assure you, Senator Gregg, I have got my eye on that ball 
about our people, about our facilities, about where they work, 
about how they work, about the training, about the fact that we 
need to bring more language specialists in, critical language 
specialists, and about the need that we can never again afford 
to have the kind of situation that we had in the 1990's where 
we missed a whole set of classes of Foreign Service officers. 
The technology has to be right for our people. You make the 
point absolutely correctly, which is that we cannot do any of 
this without people and without our people having the means to 
do what they need to do.
    When I go out, I always do an embassy--we call them embassy 
meet and greets, and I go out and I see these people working 
really hard in difficult circumstances. Senator Leahy mentioned 
Colombia. They are out there literally fighting the 
narcotraffic wars, and they are in places helping the 
Colombians to do that. You go to Afghanistan. They are out 
there helping people build businesses. These are not people who 
are just sitting in their offices sending back cables. They are 
out there on the front lines really carrying out the hard work 
of democracy and development. So we owe them the very best that 
we can get them.
    Senator Gregg. Well, I thank you for that commitment, and I 
agree with it, obviously. I do hope that as you set up these 
efforts, that you remember, as we build these embassies such as 
the one that you are going to build in Baghdad, the vast 
majority of the utilization of that embassy is probably not 
going to be Foreign Service personnel. It is going to be from 
other functions within the Government. We have had a little 
problem getting them to participate in the underwriting of 
that. I do hope you will continue to press some of our other 
agencies to participate in that because it relieves the 
pressure on this committee specifically, but more importantly 
pressure on the State Department in funding things like IT and 
other areas.
    I thank you again for the great job you are doing.
    Secretary Rice. Thank you very much.
    Senator McConnell. Thank you, Senator Gregg.
    Now we will turn to Senator Landrieu, followed by Senator 
DeWine and Senator Durbin.

                 STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Thank you. Thank you, Madam Secretary, 
for being here today and for your service and the passion and 
intensity with which you undertake your job. I have always 
found it to be inspirational, and as a member of this 
committee, I look forward to working with you.
    I agree wholeheartedly with your comments, about our 
efforts to try to expand democracy and freedom where we can, 
that it clearly is in America's interest. You mentioned some 
strategies you are undertaking and I hope we can work together 
to do that. Could you speak a moment about the special focus 
you've had on serving half the population in all of these 
countries, which are, of course, women?
    I am reminded of the images that we saw on the television 
before we went into Afghanistan. In large measure, it was ``we 
are coming in to free you and to free the women and to get them 
out of oppression and into colleges.'' Yet, we have been there 
now for several years and we do not hear too much about our 
success in that aspect. I only raise it because my own personal 
experience shows me that as we continue to try to build more 
capacity in these nations, that making sure those resources are 
spread to both the future of men and the future of women is 
important.
    So if you could just comment about the status of women 
particularly in Afghanistan and Iraq, which I know is very 
troublesome still, but also in other parts of the Mideast, such 
as our allies in Kuwait, and Saudi Arabia. What is our strategy 
for moving women into the forefront of society, having the 
right, to vote, own property, the right to exit a marriage if 
it is abusive, the right to full custody to children, the 
rights to an education, the rights to decent health care? Could 
you comment a bit about our efforts to bring democracy to that 
half of these nations?

                    FOCUS ON WOMEN IN FOREIGN POLICY

    Secretary Rice. Absolutely. Thank you, Senator Landrieu.
    We have had a very strong focus on women's rights, women's 
education, women's empowerment, and the poverty reduction for 
women because one of the facts is that when poverty reduces for 
women, it gets better also for the whole society. Very often 
women in, for instance, small business orientation can help an 
entire society, and so you will find that we have done a lot 
with microfinance around the world, for instance, because there 
women take a little bit of money, they build a little business 
maybe in textiles or something, they employ other women, and 
the village does better as a result. So we are very focused on 
women's empowerment in economies.
    We also are very focused on women's education. Here I think 
there are good stories to tell. Girls are going to school in 
record numbers in Afghanistan in a place where they did not go 
to school. That is something that America has to be immensely 
proud of. When I was in Afghanistan, you would see that little 
girls are out there with their fathers and they are sort of a 
part of the life. That is going to continue to be a major focus 
for us.
    In a place like Pakistan, for instance, we are also funding 
programs in women's education.
    Then it comes to the matter of women's political rights 
which, of course, is the ultimate guarantee that women can 
defend themselves against societies that might try and 
subordinate them. In the places where we have had a direct 
impact like Iraq and Afghanistan, I think the story is good. It 
is true that there are still age-old attitudes, particularly in 
Afghanistan, less in Iraq, that are patriarchal in the way that 
women are viewed. But women are in legislatures. They are in 
ministries. In some cases, they are ministers. We have seen 
women insist on actual percentage quotas for women's 
participation in political life.
    We have a couple of very important councils, the Afghan 
Women's Council, which the First Lady has been very involved 
with. I have meet with Iraqi women political leaders when they 
are here. The best news is that while we are trying to empower 
women, they are clearly empowering themselves. They care about 
this. They are really organizing themselves.
    I met with a group of women in Afghanistan. They were women 
doctors and women lawyers and women human rights activists. 
There was also the first woman paratrooper in the Afghan armed 
forces, which was really quite something to see.
    So I do not want to paint too rosy a picture because in 
many cases these are very traditional societies that are going 
to have to overcome a lot. But I do believe that women believe 
now that it is their rightful place, and when in Afghanistan, 
the constitution guaranteed that men and women are both 
citizens, we all sort of thought, well, that is great. They 
thought this was an extraordinary development. There is still 
work to do.
    I think it is fair to say we were disappointed about 
Kuwait, and eventually we hope that women will vote in both 
Kuwait and Saudi Arabia.
    Senator Landrieu. Well, I encourage you to continue. Not 
only are you personally a role model for what we are speaking 
about, but women of the world particularly look to you for that 
vocal, passionate leadership. When I was in Iraq, several of 
the soldiers, male soldiers, came up to me and said we are here 
to free everyone, and we want you to take that message back to 
the highest powers. So I have delivered it.

                 HAGUE TREATY ON INTERNATIONAL ADOPTION

    The second question, if I could. Are you aware of the Hague 
Treaty on International Adoption? I know you are responsible 
for many treaties, but this was one that was passed 
overwhelmingly by the Senate several years ago. Jesse Helms 
actually helped to lead this effort along with Joe Biden. We 
have not implemented it. We specifically requested from the 
former Secretary of State some action. Of course, other things 
have rightly received more priority.
    I raise this to you because it is an issue that is very 
important to Americans as a value of family life, and the value 
that children are really to be raised in families. Governments 
do a lot of things well. Raising children is not one of them. 
Children in our country and in the world should be raised in 
their biological family, in their extended family that is 
available if their parents are separated. I am wondering if you 
would make a commitment to look into that to see if we could 
get this treaty implemented. In exchange, we would agree on 
this committee to work with you to fund, whatever is necessary 
for you to do that.
    Secretary Rice. Thank you, Senator. I will look into it. I 
will get back to you with a report on where we are.
    Adoption has been an issue that, as you know, has been very 
important to the President. He very often raises these issues 
with people from around the world. He was just, not too long 
ago, raising this with the Romanians because we have had, of 
course, a number of issues there with Romania.
    But I will get back to you on what progress we have made.

                           PREPARED STATEMENT

    Senator Landrieu. I know my time is up, but I will submit 
other questions on Uganda, the AIDS issue, and particularly the 
LRA in Uganda and what we are doing to address that conflict 
near the Sudan.
    Thank you.
    [The statement follows:]
             Prepared Statement of Senator Mary L. Landrieu
    Madame Secretary, thank you for taking the time to be here this 
morning. As you know, I consider it a great privilege to serve as a 
member of this subcommittee at such a crucial time in our Nation's 
history. While there are still some who doubt the need for foreign 
assistance and others who characterize it as charity, I see the aid we 
give to developing countries as strategic investments in freedom, 
democracy and the protection of human dignity. Providing financial 
assistance to developing countries, particularly in areas touch the 
every day lives of people such as health care, housing, nutrition, and 
education, allows us to help these countries more immediately realize 
the fruits of a democratic society. And in contrast, failing to provide 
such support, puts democracy at risk. In the words of former President 
John F. Kennedy, ``To fail to meet those obligations . . . would be 
disastrous; and, in the long run, more expensive. For widespread 
poverty and chaos lead to a collapse of existing political and social 
structures which would inevitably invite the advance of totalitarianism 
into every weak and unstable area. Thus our own security would be 
endangered and our prosperity imperiled. A program of assistance to the 
underdeveloped nations must continue because the Nation's interest and 
the cause of political freedom require it.''
    With this in mind, I look forward to having the opportunity to 
provide oversight and support to you and your agency. To me, it never 
made sense to have the federal agency charged with delivering foreign 
assistance under a different committee's jurisdiction than the federal 
agency tasked with implementing foreign policy. I, for one, would like 
to see us work to forge a stronger connection between the funding 
distributed through USAID and the policies pursued by the State 
Department because I think that it is critical that we use our federal 
resources to strengthen and support U.S. policies abroad. I know that 
this is a concept that is, at least in part, supported by President 
Bush, as evidenced by his efforts to establish the Millennium Challenge 
Account. I hope that you and I can work together to explore other ways 
to strengthen this connection.
    There are several areas of foreign policy that I believe would 
benefit from this strengthened coordination. First, I see a need and an 
opportunity for the State Department's to strengthen their role in the 
building and strengthening of families. As I have said many times, 
countries are not built on roads and buildings alone, their strength 
and vitality rests solely on the building, and sometimes, re-building 
of families. As the late Pope John Paul II was quoted as saying, ``As 
the family goes, so goes the nation and so goes the whole world in 
which we live.''
    Madame Secretary, four years ago, I had the distinct pleasure of 
meeting for an hour with the former President of China, Jiang Jiamin on 
the issue of international adoption. During this meeting, he shared 
with us that the Chinese believe every child born is born with a red 
string attached to their heart, the other end of which is tied to the 
ankle of their soul mate. It is because of this string, they believe, 
that soul mates eventually find each other and spend the rest of their 
lives together. It is his belief, that perhaps the same is true of 
children who are adopted. That when they are born, their hearts have a 
string that is tied to the ankle of their forever family, and it 
because of that heartstring that they eventually find one another.
    I will treasure the memory of this meeting forever. Not only 
because it was an extreme honor to meet with such a learned and 
distinguished leader, but because it reminds me of how profoundly 
adoption affects the world we live in. 19,237 children were adopted by 
American citizens last year. 18,477 children the year before that, 
16,363 in 1999 and 15,744 children in 1998. That is almost 100,000 
children in four years. I think it is easy for us to understand the 
impact that these adoptions have had on the adoptive families and the 
orphan children, but what I would like to focus on afternoon is the 
impact that this has for the diplomatic relations between the United 
States and countries throughout the world.
    In sheer numbers alone, the impact is evident. In real terms, these 
children are ``mini-ambassadors'' to 200,000 American citizen parents, 
400,000 grandparents, conservatively 800,000 aunts and uncles, and 
300,000 siblings. According to a recent report by the U.S. Census 
bureau, 1.6 million people in the United States were adopted, 15 
percent of them from abroad. Because of this magnificent process, 
communities all over the United States are deepening this understanding 
and affinity for the people of the world. September 11 reminded us of 
the importance of continuing to build bridges with the nations of the 
world. International adoption is one very effective and lasting way to 
build these bridges.
    Over this past year, I have also had the privilege of meeting with 
the Presidents of Kazakstan, Romania and Russia and high-ranking 
government officials from Cambodia, Vietnam, Honduras, El Salvador, 
Guatemala, Uganda, and the Ukraine. Each time the message is the same. 
They want to do what they can to make the Hague more than just a piece 
of paper with 59 signatures on it.
    These nations are looking to the United States to lead the way 
toward a system of international adoption and child welfare that is 
based on best practices. A system comprised of meaningful protections 
for the adoptive parents, the birth parents, and perhaps most 
importantly the children; a system that universally recognizes that a 
government institution is not and cannot be an adequate replacement for 
a family and works toward the shared mission of finding every child in 
this world a loving and nurturing, permanent family.
    Madame Secretary, I hope that my remarks this morning will remind 
you of the power that this issue has in shaping the world's future and 
that you will do what you can to see that it is given proper 
recognition within your department. I think that the orphans of the 
world would benefit greatly from your leadership and compassion.
    Another area that would benefit from stronger coordination is in 
the area of women's economic and political empowerment. I would like to 
complement you, Madame Secretary, and your Department, for your 
dedication to improving the lives of women worldwide. I note your work 
in both Afghanistan and Iraq and the investments we have made in 
programs there to help bring freedom and equality to the women there. 
While the efforts there have been commendable, I would argue that more 
can and should be done.
    Take for instance the micro-enterprise loan program, which 
disproportionately benefits women. It has received $150 million over 
the last five years. While impressive, in the context of a $32 billion 
foreign aid budget, I would argue we can afford to do more.
    When I have raised these concerns in the past, I have been told 
``Senator, but since women comprise 50 percent of the population, it is 
safe to assume that 50 percent of any funding going to the country will 
be spent on improving lives for these women.'' While I am not convinced 
this is always the case, particularly in countries where the oppression 
of women has been widespread for decades, if we truly want to bring 
freedom and democracy to these countries then we must actively support 
programs that directly benefit and empower women.
    I, along with other members of this committee, have worked in the 
past to see that a portion of all funding dedicated to the development 
of emerging democracies, be used for this purpose. I am glad to see 
that this trend has been incorporated into other parts of the budget 
and I hope to see that continue.
    Finally, Madame Secretary, I want to call your attention to an 
issue that has deeply affected me since my return from Uganda nearly a 
year ago. While there I personally witnessed the terror and chaos 
imposed by Joe Kony and the Lord's Resistance Army, particularly for 
the children who have come to be known as the night commuters. What 
these children have had to live through is indescribable and should not 
be allowed to happen in a world such as ours.
    I would suggest that as we look to areas of the world that might 
benefit from our assistance and leadership that we look to Northern 
Uganda. In carrying out our goal of seeking out terrorists wherever 
they may hide, I urge us to do what we can to end the terrorist rein of 
the LRA.
    Again, Madame Secretary, thank you for being here this morning to 
share your views with us and I look forward to working with you on 
these and other issues.

    Senator McConnell. Thank you, Senator Landrieu.
    We will now turn to Senator DeWine, followed by Senator 
Durbin, and Senator Bennett.

                   STATEMENT OF SENATOR MIKE DE WINE

    Senator DeWine. Madam Secretary, good to see you. Good to 
have the country's foremost Cleveland Browns fan in front of us 
today.
    Secretary Rice. It is true.
    Senator DeWine. I could not resist it. Good to have you 
with us.
    I do not want to belabor the point that Senator Leahy made, 
but I am also concerned, I must tell you, about the 
developmental assistance figure. Again, not to belabor the 
point, but by my calculation at least, even if you figure in 
the new transition initiative country spending, we are still 
coming up by my figures about $70 million short on 
developmental assistance. So, again, it is a concern that I 
have.

                                 HAITI

    Let me talk about one of the issues that I have talked with 
you many times about, and that is Haiti. The crisis continues 
in Haiti. It is certainly not getting any better. Elections are 
scheduled this year.
    Madam Secretary, I have been a big supporter of CAFTA. 
Those of us who have been around here--for me, I was in the 
House in the 1980's--have to understand I think the importance 
of this to Central America and how important continuing the 
development of democracy is in Central America. You pointed out 
what is going on in Nicaragua. I was down in Nicaragua a few 
months ago. I understand the dynamics of what is happening 
there. I am a big supporter of CAFTA.
    But I must say I find a little inconsistency in the 
administration not supporting a trade initiative in regard to 
Haiti. I think we really could do two things at once. I have 
seen enough in regard to Haiti to know that we are not going to 
help Haiti really just by money. What we are doing we have to 
do. We have to do it for humanitarian reasons. We have to do it 
so we do not have to send troops down there again. We have had 
them down there twice in the last decade. They are going to be 
down there again at some point if things do not get better. But 
really, whether you are a Democrat or Republican, I think we 
all understand that really what Haiti needs is jobs. That is 
the only way this country is going to have a chance, the people 
are going to have a chance.
    I would just ask you again for the administration to look 
at the trade bill that we passed last year in the Senate. It 
did not pass in the House, although there was a pretty good 
effort made to get it passed, but it did not pass. That is 
really what is needed if we are going to help Haiti and if we 
are going to deal with the foreign policy problem that this 
country has. I would like for you to comment on that, but let 
me ask a couple of other questions.

                                 AFRICA

    Ethiopia, Eritrea, the stalemated border dispute. I wonder 
if you could tell us what steps you might be thinking about 
taking or are taking to help resolve that border dispute and to 
deal with the starvation and the poverty issue there.
    The Congo. If there has been an under-reported tragedy in 
the last 5 years in the world, it has been the terrible, 
terrible tragedy in the Congo. What can be done or what role do 
you see the United States playing in that part of the world?
    Three questions.
    Secretary Rice. Thank you. Yes, of course.
    Let me start with the Congo. The principal problem in the 
Congo, of course, is to try and get a stable transitional 
government in the Kabila government that can actually begin a 
political transition toward elections. We have tried to do a 
couple of things to help with that. The forces are provided 
there by the French and others.
    But we have tried to be very politically active in a 
trilateral set of discussions that we have because one of the 
problems, as you well know, is that outside forces have been 
destabilizing to the DROC. So trying to get the Rwandans, the 
Ugandans, and others to know where their armies are and to have 
them involved in the DROC, to not support the RC Agoma and the 
militia forces that are stirring up trouble in the Congo, it 
has been our role to really try and deal with that problem. We 
have had very close cooperation with the South Africans, with 
President Mbeke, in trying to keep foreign forces out of the 
Congo. We have had variable success.
    But if we can continue to do that and if we can strengthen 
the ability of the Kabila Government to stay stable for a 
while--now, the big problem, of course, is the demobilization 
of these militias that are operating in the country. Another 
big problem is to have a kind of a national unity picture going 
into the elections. We have trilateral discussions. We have 
discussions with Kabila. I can tell you I spend a good deal of 
time on the phone, at least every couple of months, with making 
the rounds, Kabila, Kagame, Museveni. We have really been very 
active diplomatically there.
    We are probably going to look at more international 
engagement as we get ready for the elections, but I think on 
that piece we are doing what we can.
    I am glad you drew attention to the Ethiopia/Eritrea 
situation because we are actually quite concerned about the 
potential for a humanitarian problem there concerning food. We 
have begun to discuss with the Ethiopians the prepositioning of 
some food supplies there to deal with what could potentially be 
a famine situation. We are not there yet, but the warning signs 
are there. I have had discussions with USAID and with Andrew 
Natsios about doing that.
    We are also trying to intensify our political efforts. Of 
course, the border is a major part of it, but also to try to 
get the government to be responsive to what may be a 
humanitarian problem that it has had trouble seeing. So on this 
one we are trying to intensify our diplomacy ahead of the game 
because we would like not to get into a crisis situation there. 
Though we do not know for certain that there will be, there is 
certainly something looming.
    As to Haiti, Senator, first of all, I want to just note 
that I appreciate your leadership on Haiti, the $20 million in 
ESF for Haiti. We, as you know, are trying to rebuild police 
forces. We are trying to do a lot of things. I had extensive 
discussions with the Brazilians when I was there. They lead, of 
course, the effort in Haiti.
    We think the Haitians can take better advantage of the 
Caribbean Basin Initiative than they are currently taking and 
that there is room there for trade improvement. We will 
continue to look at what measures we can use, but it is very 
much on our radar screen.
    Senator DeWine. Thank you, Mr. Chairman.
    Senator McConnell. Thank you, Senator DeWine.
    Now we will turn to Senator Durbin, followed by Senator 
Bennett, and Senator Brownback.

                                 SUDAN

    Senator Durbin. Madam Secretary, thank you for joining us. 
I have two questions of substance and one of style.
    The first question of substance relates to the Sudan. 38 
Senators sent a letter to you in March asking that a special 
envoy be appointed to Sudan to carry on the fine work that John 
Danforth initiated. We received a reply this week rejecting 
that notion, suggesting that Deputy Secretary Zoellick would 
continue in that capacity in some way or another. And the 
letter said that at an appropriate time, the Ambassador to the 
Sudan would be named.
    First, I would like to ask this question. The appointment 
of an Ambassador can be seen by many as a reward to the 
government of Khartoum. Is there any reason why we should be 
rewarding this government in light of what is happening in 
Darfur?
    Second, the day-to-day involvement of a Deputy Secretary 
is, of course, diminished since he has many other 
responsibilities, and I worry whether or not he would have the 
time or the inclination to really devote the kind of time that 
John Danforth did to this terrible crisis.
    I am also concerned when Mr. Zoellick recently visited the 
Sudan, he was asked about the word ``genocide,'' and he said, 
quote, he did not want to get into a debate over terminology. 
This is a dramatic departure from the unequivocal statement 
made by Secretary Powell in which he said in September of last 
year, ``I concluded that genocide has been committed in Darfur 
and that the Government of the Sudan and the janjaweed bear 
responsibility and genocide may still be occurring.''
    I just wondered if you would comment. Sadly, it sounds like 
we are back in the same word game that was played by the 
previous administration in Rwanda, and I hope that is not the 
case.

                              CHINA TRADE

    The second substantive issue relates to China. We have lost 
millions of manufacturing jobs in the United States, hundreds 
in my own State, in the last several years because of unfair 
Chinese trade practices, literally their manipulation of 
currency. Many people believe that when the highest levels of 
decision-making are made in this administration and in previous 
administrations, that politics often trumps trade.
    I can see from statements made by you today and other 
places and answers to questions how critically important China 
is to us on North Korea. Many people that I speak to suspect 
that we are holding our punches when it comes to unfair Chinese 
trade policy because we are so dependent on the Chinese in 
trying to find some peaceful resolution in North Korea, not to 
mention the fact they are the second largest holder of the 
American national debt, which grows by leaps and bounds. So if 
you could comment on the second substantive question as to 
whether or not the State Department is winning the debate over 
those who argue we should enforce our trade agreements with 
China for the benefit of American businesses and workers.
    The last question is one of style. You said something today 
I have never heard said before, and I hope I quote you 
accurately. It was not in your written statement. You called on 
us to approve CAFTA to fight the forces of populism. You said 
that two or three times, ``the forces of populism.'' And it 
stopped me because I had never quite heard the term populist 
used in such a negative and pejorative sense. In American 
history, Thomas Jefferson, Andrew Jackson, Abraham Lincoln, 
Theodore Roosevelt were characterized at some points in their 
careers as populists. Today Nelson Mandela is viewed as a 
populist. Aung San Suu Kyi in Burma is viewed as a populist.
    Is it the position of the administration that populism is 
antithetical to the spread of democracy?
    Secretary Rice. Thank you. Let me start with the last 
question, Senator Durbin. I think populism has a particular 
meaning in the Latin American context, and I do not mean 
populism of a kind that was practiced by Andrew Jackson, I 
assure you, or by Nelson Mandela.
    By that I meant the kind that was practiced by Peron in 
Argentina. This is a kind of demagoguery that talks about the 
needs of the people and the wants of the people, and it is 
being practiced today in some places in Latin America. For 
instance, I think you could say that some of the rhetoric in 
Venezuela is of that character.
    I do not mean that the United States is unable to work with 
governments from left of center. Quite the opposite. When I was 
in Brazil, I gave a speech saying that the United States of 
America would work with any democratically elected government 
that governed by transparency, that fought corruption, that 
cared for the needs of its people, that kept its economy open, 
that traded freely. I cited in particular several governments 
left of center like Brazil and Chile with which we have had 
that kind of relationship.
    The kind of rhetoric that you do get, though, from some 
quarters in Latin America is not about responsible government. 
It is not about responsible economic policy. It is calling to 
the people who are poor and in need in a clearly anti-
democratic way. I think if you look at the spectrum in Latin 
America, you will see that there is a growth of that kind of 
rhetoric in Latin America and we have to resist that.
    The reason that I cite CAFTA in this regard is that if you 
look at the Central Americans, you have small countries that in 
the 1980's went through horrific civil wars, that had communist 
movements that were trying to take over the countries, in some 
cases actually ruled like in Nicaragua. And we have come a long 
way when you look at the Central American presidents that were 
there with the President today who do govern democratically, 
who do have open economies, who are interested in free trade. 
The comment was to contrast what we see from a particular 
extreme in Latin America with the kind of, I think, totally 
responsible and good governance that we see from governments 
like Brazil or Chile. So that was the meaning in that context.
    Now, in terms of Sudan, we do have a charge there whom we 
have appointed. Deputy Secretary Zoellick is spending a great 
deal of time on Sudan. We all are, Senator. For instance, when 
I was at NATO, I worked to try and get NATO to agree that 
should the African Union ask, NATO would be prepared to give 
logistical support for the African Union forces when they are 
generated. I think we, hopefully, will get that agreement. So 
we are spending a good deal of time, a great deal of time on 
Sudan.
    It may be the case that at some point in Darfur there is 
need for an envoy. I think we really believe that right now the 
strategy has to be to work with the AU on a very intensive 
basis to get forces into the country to deal with the 
humanitarian situation by getting monitors into the country and 
then to contribute to the long-term process that might 
ultimately reconcile the various forces. That is the reason 
what we focus so heavily on the North-South Agreement because 
it gives the kind of framework in which you might be able to 
look at the Darfur circumstance.
    As to genocide, we believe as a Government that, yes, 
genocide has been committed there. We have, from time to time, 
said to people let us--because you remember the United Nations 
did not come out with that assessment--what we have said to 
people is let us not quibble about what it is called. Let us 
just recognize that we have a horrific humanitarian situation 
here and that we need to act. I think it is in that context 
that the deputy's remarks should be taken.
    Finally as to China, Senator, I consider it a part of my 
job as Secretary of State to defend America's trade as free 
trade and fair trade. I do not think there is a State 
Department position and a trade position here. There is a U.S. 
position, and American foreign policy should be about 
protecting a trading playing field that is level and fair so 
that America's workers and farmers can compete.
    I spent a very long time with the Chinese leadership when I 
was there. I had an entire session with the Premier that was 
entirely about economics, entirely about the need of the 
Chinese to respect intellectual property rights, entirely about 
the need of the Chinese to have a flexible market-based 
exchange rate. I believe it is part of our job to think of the 
Chinese relationship as a whole but, by all means, the need--
especially given the size of the Chinese economy. I have said 
publicly that China cannot have it both ways. China, if it is 
going to be as it is, this huge economy, has got to be in a 
rules-based environment and has got to live up to its trade 
obligations.
    Senator McConnell. Thank you, Senator Durbin.
    We will now turn to Senator Bennett, to be followed by 
Senator Brownback and Senator Harkin.

                 STATEMENT OF SENATOR ROBERT F. BENNETT

    Senator Bennett. Thank you very much, Mr. Chairman.
    Secretary Rice, I have said in another place but I will say 
now clearly for the record how grateful I am for the trip you 
took to Europe to repair some relationships with our longtime 
European allies. I have associations in Europe and the back 
channel reaction for your trip there and your performance there 
was very positive. You hit a home run and should be publicly 
congratulated for that.
    The chairman here has a one-note that he repeats every 
time, which is Burma. Senator Leahy has one that he repeats 
almost every time, which is land mines. And trying to follow 
their sterling leadership, I have one that I repeat every time, 
which is microcredit.

                              MICROCREDIT

    I was pleased to have you make mention of microcredit in 
your response to one of the questions. I worked hard to get 
designation of microcredit funds in the supplemental with 
respect to the tsunami because I believe one of the best ways 
we can rebuild the economy as a result of the tsunami is 
through microcredit. I have seen firsthand the way it works. I 
have a piece of embroidery in my office, which was sent to me 
from Morocco by a woman who began her business with a $20 loan 
in microcredit.
    My experience is that the--I will not use that term. That 
would be pejorative--the long-term, permanent cadre in the 
State Department is, shall we say, a little less enamored of 
microcredit than I am. They do not like funds they do not 
control, and the idea of putting money out there and making it 
available to primarily women who have the entrepreneurial urge 
is something that a more structured individual kind of does not 
like. They like to be able to control the money and how it is 
handled and monitor it and shepherd it in a way that 
bureaucracies respond to.
    So I would simply sound my one note and ask that you 
continue to see to it that the microcredit activity remains 
viable and, to the extent it is possible, continues to grow. I 
am not sure I am responsible, but in the time I have been 
sounding this one note, the amount of money from the State 
Department in microcredit has more than doubled, and I would 
hope it would continue to go in that trajectory under your 
stewardship.
    You can respond in whatever way you would like.
    Secretary Rice. Well, thank you, Senator. I am myself a big 
fan of microcredit. I think that it really does, particularly 
for women, empower them and then they do tend to create jobs 
for people around them. So it is very important.
    We are doing a lot of very interesting things with 
microcredit in USAID. When I was in Mexico, I visited a credit 
union in Mexico. We were not providing direct funds to the 
credit union. What we were doing, though, was providing 
technical assistance to the creation of credit unions there and 
out in various more remote parts of Mexico so that----
    Senator Bennett. My banker friends would not be happy to 
hear that.
    Secretary Rice. But they were really very effective units. 
I watched some people sign for their business loans, and it is 
very exciting.
    So I thank you for what you did on the tsunami. I think we 
think that was a very useful thing to do, and thank you very 
much for that.
    Senator Bennett. Thank you, Mr. Chairman.
    Senator McConnell. Senator Brownback.
    Senator Leahy. Mr. Chairman, if I could just mention I 
agree with Senator Bennett on microenterprise. I have worked 
with several Secretaries of State on that. Both Senator 
McConnell and I have tried to put money in for it. I think it 
is a great idea.
    You mentioned the land mines. Ironically enough, the work 
we have done on land mines and the work we have done on 
microenterprise often complement each other because 
microenterprise loans have been used often in places where 
people have had everything devastated because of land mines. 
They are not either/or, by any means. I know the Senator was 
not suggesting that. We should work closely together.
    Senator Bennett. Thank you. I do not know the source of 
this, but I have been told that when money goes to men, they 
get fatter and drunker and nothing else happens in the 
community, but when money goes to women, the birth weight of 
children increases and the health of the community as a whole 
improves. So let us keep the money going to the ladies.
    Senator McConnell. Senator Brownback, to be followed by 
Senator Harkin.

                   STATEMENT OF SENATOR SAM BROWNBACK

    Senator Brownback. I have not seen the empirical data on 
that.
    Maybe it is accurate.
    Welcome, Secretary. Always a delight to see you and to work 
with you. You have got a great track record.

                         MIDDLE EAST ELECTIONS

    I would note, in particular, what is taking place in the 
Middle East today which is just a matter of, I think, great 
encouragement to see what is taking place. I was recently in 
Iraq about a month and a half ago, that election having just an 
electrifying impact on the population, spilling over into 
Lebanon, seeing the Syrians move out. It is my hope that this 
Syrian regime that is currently in place starts to get the idea 
that democracy is a good thing and moving that way. Egyptians 
hopefully holding multiparty elections, although it seems to me 
there is a bit of retrenchment on that note. If there is 
something different on that, I would like to hear it.
    Iran the chairman has already asked about. I do think and I 
hope we can do more on civil society building, interior and 
exterior, on Iran. We have got some money in this budget the 
last 2 years for that, and I hope we can continue that because 
that seems to me is the biggest terrorist bed still remaining. 
There is a number of terrorist spots, but this is the biggest 
and the most potent and an open ideology that is very 
threatening to us and to Israel and to a number of others. To 
me, Iran is probably one of the most concerning, if not the 
most concerning, major geopolitical issues that is there.

                                 DARFUR

    Thank you on Darfur for reiterating the genocide 
determination on it. I would urge, as quick as you can, 
supporting movement of African Union troops and mobility. We 
put $50 million in the supplemental that just passed for 
African Union troops. I have been there. You have been in the 
region. Deputy Secretary Zoellick, just recently there. Every 
day we lose people. I am absolutely convinced, 20,000-25,000 
troops on the ground with mobility, with a broad engagement 
that they can respond and move and chase the Government of 
Sudan or the janjaweed forces, this thing is over. We may have 
lost 400,000 people in the last year and a half there. It is 
awful. Just with all speed that you can move on Darfur, you are 
going to save lives in the process.

                        NORTH KOREA HUMAN RIGHTS

    I want to take you to North Korea, if I can. We passed the 
North Korean Human Rights Act last year. Your administration 
has done more on North Korea than anybody else the last number 
of decades. We just ignored it for a long time. But the numbers 
I have seen--about 10 percent of that population in North Korea 
has died over the last 10 years by starvation, gulags. It is 
horribly repressive.
    I just held a press conference this morning showing two 
death penalties being issued on the border, the trial, the 
announcement, and then the guy shot within 5 minutes. And 
people all herded out just to see it just to try to keep people 
from going across that border.
    I believe we are not doing enough to pressure China on this 
who does hold the key on this. Now, I do not know the numbers, 
but the numbers I keep hearing are at 100,000-plus North 
Koreans in northern China and they continue to gather them up, 
repatriate them, and then they are thrown in a gulag or killed.
    I would hope you could appoint that special envoy on North 
Korean human rights.
    I would really ask if you could look at starting to allow 
North Korean refugees to come into the United States. That 
authority was given to you in that human rights act. It would 
send a powerful message to that region of the world. I have got 
a couple of sick girls to nominate. If you are concerned about 
the security--I keep hearing from the State Department, well, 
we cannot check the security of the North Korean refugees. I 
have got two. One is, I think, 12 and another 13-year-old 
girl--or 12 and 14. They are sisters. One is sick and needs 
medical assistance. I do not think there is a security issue 
with either of them. But it is a huge statement because they 
have not been allowed into the United States today. If you 
could look at that.

                          OSCE/KYRGYZ/GEORGIA

    Then in my hat as the chair of the OSCE, the Helsinki 
Commission, here just beautiful things taking place in that 
region. I am watching carefully--and I know you are--the Kyrgyz 
and what takes place there. That one, after the Ukraines and 
the Georgians, seems a little bit different taste of an 
overthrow than what the two--nonetheless, holds great promise 
to really move that country forward positively. But I do think 
we are going to need to invest time and money. Small country 
but significant and would have a significant impact.
    Then coming up, I think it is, September--maybe it is 
November--this fall Azerbaijan is holding elections. I just 
last week talked to the President, Ilham Aliyev, about their 
elections. They need to set up now for clean, fair, good 
elections. I think they know it, but they are so strategic 
where they sit between Russia and Iran. The oil pipeline is 
through that region. I think we have got to keep pushing them 
that, look, you do not just 2 weeks ahead of the election say, 
okay, we are going to have good, clean, fair elections and 
everything happens. It is months in advance, and parties are 
allowed to compete and they are allowed access to the press. 
And if that does not happen and you get something that happens 
here in the region, we cannot really stand by you and say, 
well, okay, I guess it was a fair election. I was conveying 
that and I hope others can as well.

                                 UGANDA

    This is a final comment and this is a whole bunch of them. 
But I was just in northern Uganda in December. Our embassy 
there supports providing mobility, helicopters and trucks, to 
the Ugandan Government to chase the LRA, a group of bandits, 
and a million and a half people in refugee camps for 15 years. 
I think they are significantly weakened, and mobility might 
just be the issue. We have worked with the State Department and 
Defense. They have some issues with doing that even though our 
embassy there supports it. If there is a chance that you could 
look at that, because if we can get Joseph Kony and his 
leadership and now with the North-South Agreement, we should be 
able to reduce their areas they can go into in southern Sudan 
for refuge, you will again free another million people to go 
back to a normal lifestyle that have been on the run for 15 
years. So it is a tougher call, I will wage, but I would ask 
you if you could look at that issue.
    Any of those you care to respond to or if you want to just 
take them under advisement.
    Secretary Rice. Well, thank you, Senator. I will look into 
the Ugandan issue. I know that there are some questions about 
it, but I will look it into and get back to you on the Uganda 
LRA.
    We have identified a special envoy for North Korean human 
rights. There should be an announcement of that very soon. We 
still have some details to work out, but I think we should be 
able to do that soon. I think it is a very important issue. We 
do need to shine more of a spotlight on the human rights issues 
in North Korea. We are working with Homeland Security and with 
others about what we might be able to do on North Korean 
refugees. So we should talk more about that.
    I would like very much to thank you for what you have been 
doing on the OSCE because I think the OSCE is really proving 
its worth as an organization. Kyrgyzstan was a very good 
example. We got OSCE mobilized. They sent Mr. Pederly there as 
an envoy who I think sorted out what was an complicated and 
difficult and not at all transparent situation between the 
various players in Kyrgyzstan and gave us an opportunity now to 
have elections and something that may turn out very well. So it 
is an organization I think that demonstrated its worth.
    We are very pleased that after a long, cold period with the 
Russians, they finally approved the budget for the OSCE. That 
is good news.
    We will continue to press all of these countries, including 
Azerbaijan, Belarus in 2006, that the world is watching whether 
elections are free and fair. Now, in some I think we will get 
less response--like in Belarus. I think in Azerbaijan, however, 
we have a chance to convince the Azerbaijani Government that 
they have a reason to be concerned about this.
    So I thank you, and I think it is an extremely important 
organization that is doing really good work in that part of the 
world.
    Senator Brownback. Thank you.
    Senator McConnell. Thank you very much, Senator Brownback.
    Senator Harkin.

                    STATEMENT OF SENATOR TOM HARKIN

    Senator Harkin. Thank you very much, Mr. Chairman.
    Madam Secretary, welcome again to the committee.

                          DISABILITY PROGRAMS

    I just have kind of a follow-up on something we have 
discussed on February 17 when you were here, and that has to do 
with the whole area of disability programs in the State 
Department and what we are doing in Iraq. I asked at that time 
that you look into whether people with disabilities in Iraq are 
receiving appropriate services to help get them included in 
Iraqi society.
    Today we received a letter from the Assistant Secretary for 
Legislative Affairs that outlines USAID activities for people 
with disabilities in Iraq. It is pretty comprehensive. It 
appears that there are things that are being done. I am very 
grateful for that.
    The one thing I would perhaps direct your attention to or 
those under you, anyway, is the educational services often seem 
to be provided in a segregated fashion. The document talks 
about providing educational services for children in a ``center 
for the disabled'' in Baghdad and then transferring them to 
another facility once they complete their education.
    In another instance, a community action program is working 
with an NGO to establish ``an institute for the disabled'' 
rather than educating students with disabilities alongside 
their peers.
    Now, the only thing I would hope is I would hope that you 
might just send a memorandum down the line to these people 
under you and just use the words ``integrated fashion,'' that 
the people with disabilities ought to be provided this help and 
support in an integrated setting, not separating them out from 
the rest of society, but to the maximum extent possible, 
providing that in an integrated setting to the maximum extent 
possible. That is all I ask, that you might get them to think 
about it in that framework.
    Section 579 of the 2005 omnibus bill. Again, I thank the 
chairman and the ranking member of this subcommittee for 
supporting that section 579. There were five specific 
requirements listed under disability programs. One was to have 
USAID and the Secretary of State to designate a disability 
advisor or coordinator within the respective agencies. At the 
hearing on September 17, I asked you if those people had been 
designated. I still do not know if they have been designated. 
If you do not know, could you just have somebody tell me 
whether they have been designated yet?
    Secretary Rice. Yes.

                      COORDINATOR FOR DISABILITIES

    Senator Harkin. A coordinator, a certain person to 
coordinate that.
    Also, one other section of the five specific requirements 
requires that the Secretary of State and USAID Administrator 
seek to ensure the needs of persons with disabilities are 
addressed in democracy, human rights, and rule of law programs, 
projects and activities that they support. And while I am not 
asking you to provide me that information now, but if you could 
provide what affirmative steps have you taken to make sure that 
this occurs, and could you give any examples of how persons 
with disabilities are being included in the democracy, human 
rights, and rule of law programs, projects, and activities?
    Secretary Rice. Senator, do you mean in Iraq specifically 
or in general?
    Senator Harkin. No. In your own Department.
    Secretary Rice. Oh, in our own Department. Disabled 
Americans, disabled employees of the State Department. Is that 
what you are referring to? I am sorry. I did not understand.
    Senator Harkin. You have the democracy, human rights, and 
rule of law programs.
    Secretary Rice. Yes.
    Senator Harkin. And you have projects and activities.
    Secretary Rice. Yes.
    Senator Harkin. How are persons with disabilities being 
included in those programs, not just here but as you extend out 
and do those programs in other countries, how are they being 
included in those programs.
    Secretary Rice. I understand. I could actually give you one 
example that I just saw. I was just in Russia, and we met with 
civil society groups there. There was both a representative of 
Special Olympics for Russia and a person who is an advocate for 
the disabled in Russia. And this is a case that I know well 
because I know that for a long time in the old Soviet Union, 
disability was considered something to be hidden.
    Senator Harkin. That is right.
    Secretary Rice. In fact, after World War II, they swept 
disabled veterans off the streets because it was somehow 
considered a stain on the society to have disabled people.
    I was struck by the fact that these people were there, that 
they actually had disability advocates. They are part of the 
civil society programs we are funding.
    Senator Harkin. Great.
    Secretary Rice. I was told that President Putin had 
actually invited, people think for the first time in the 
history of Russian leadership, disabled people to the Kremlin 
for a meeting. So that is just one small example and I will try 
to get you some others. But I was very touched by that one 
because I do know the Soviet case very well.
    Senator Harkin. It is a great example. I did not know about 
it, but that is a great example. I just again encourage you to 
take that example and keep promoting it in all the other 
countries in which we are operating, but especially in Iraq 
because there are a lot of young people that have become 
disabled because of the war and other things. If we are going 
to try to help build a democratic system in Iraq, I would hope 
that we would think about, again, how we include people with 
disabilities in a more integrated setting rather than 
segregating them out like you just talked about the Soviet 
Union used to do all the time.

                          PUBLIC LAW 480/USAID

    Last, Mr. Chairman, if I could, Madam Secretary, a few 
weeks ago Chairman Chambliss and I, chairman and ranking member 
of the Agriculture Committee, wrote a letter to the chairman 
and ranking member of the full Appropriations Committee 
opposing the idea of diverting $300 million from Public Law 
480, Title II Food for Peace Program to a separate account 
operated by the USAID, Agency for International Development. 
The idea behind it is good because the idea behind it was to 
allow USAID to be able, in emergency settings like tsunamis, to 
go out and purchase food locally and get it out there right 
away rather than relying upon shipments from this country. That 
is good. That is fine.
    What is not fine is that they are going to take it out of 
the account for the existing Public Law 480 to do that. The 
Public Law 480 program, for all the years I have been here, now 
30, that we have looked at, it has been a great program. Some 
countries, as you know, face chronic malnutrition, and have 
chronic needs for continued food aid. I just do not think it is 
right to cut down on that in case there is an emergency 
somewhere.
    So while I support the idea of restructuring and giving you 
the power to be able to get USAID to have a separate fund to 
buy food locally, both Senator Chambliss and I are opposed to 
the idea of taking it out of the existing Public Law 480 
account. So, again, I just wanted to bring that to your 
attention and hope that you would ask your boss also to take a 
look at that and leave the Public Law 480 program the way it 
is. I am sure that you will find all the support you need here 
for the additional $300 million for the program that would be 
set up by USAID.
    Secretary Rice. Thank you, Senator.
    Senator Harkin. Thank you, Mr. Chairman.
    Senator Leahy [presiding]. Senator McConnell had to leave 
to go back to the floor. We are trying to figure out whether we 
are going to get a transportation bill through today. He has 
asked me to wrap up and not to cut anybody off. Did the Senator 
from Kansas have anything else?
    Senator Brownback. No.
    Senator Leahy. I will submit some more questions on 
Colombia. I still have a concern. We all want President Uribe 
to succeed. We want cocaine to stop coming into our country. It 
would help if we did more to stop the demand here at home. We 
could isolate Colombia. We could do anything we wanted. As long 
as Americans want to buy illegal drugs, there are dozens of 
places, including our close ally Afghanistan that will send it. 
We have got to clean up our own act. But my concern is more 
about the paramilitaries and what we do with the billions of 
dollars we spend down there and how we help ensure that human 
rights are respected.
    Let me ask you this. The State Department is just one of 
many agencies using an increasing number of private security 
contractors protecting people and cargo overseas. I am not 
talking about the regular State Department security people who 
are superb. I have traveled with them. You do all the time, of 
course.
    We have DynCorps and Black Water Security, and others, that 
use ex-military personnel as hired guns in Iraq and 
Afghanistan, Colombia, and other countries. Tragically, many of 
these contractors have been killed in Iraq. But many have also 
been involved in the deaths of others, sometimes innocent 
people. What I want to know--and I really want the answer to 
this. It may have to be in classified form. I want to know what 
are the rules governing the use of lethal force by private 
security contractors who are paid directly or indirectly by the 
State Department. That is my first question.

                                SECURITY

    And what happens when a private security contractor paid by 
the State Department deployed overseas runs over somebody with 
a vehicle, shoots an innocent person, or otherwise causes harm 
on the job or off the job? Who is responsible? Are they or are 
we? So if somebody could get me that.
    Secretary Rice. Absolutely, Senator.

                     MARLA RUZICKA WAR VICTIMS FUND

    Senator Leahy. I appreciate your interest in being at the 
program for Marla Ruzicka this weekend. I understand the reason 
why you cannot. I would just hope, please, emphasize to the 
people in your Department the tremendous work this young woman 
did in Baghdad and Afghanistan. She was killed so tragically 
about a month ago. I think she was a model. We have in the bill 
that just passed, the supplemental, as you know, a provision to 
name the fund after her.
    Secretary Rice. Victim Support, yes. Thank you.
    Senator Leahy. This is an example of one person, so 
motivated--and you have within the State Department and 
elsewhere such people. We have them outside Government. Let's 
support them so they can get out there and help people.
    Secretary Rice. Thank you, Senator. I completely agree with 
that. Thank you for acknowledging Ms. Ruzicka. We appreciate 
that very much and want to acknowledge her service.
    If I may just say one thing about Colombia. I just want to 
assure you, Senator, when I was in Colombia, we spent a good 
deal of time on the issue of the paramilitaries, a good deal of 
time on the issue of the human rights issues. President Uribe 
tells us--and I believe him--that he believes that in order to 
be a really functioning, transparent, worthy democratic 
society, that they have to have human rights at the core of 
what they are doing. He is more than willing to answer the 
questions that we have about human rights. Of course, we have a 
number of them. But I just wanted you to know that this was an 
issue of considerable discussion when I was in Colombia.
    Senator Leahy. Well, and I am sure of it because I have met 
with him several times. We have talked on the phone. We have 
met at the embassy and in my office. I want him to succeed. I 
want whoever is president there to bring peace and democracy. I 
know that he risks his own life and his family's life. I just 
want to make sure that especially within our hemisphere, that 
people have respect for the United States and we are upholding 
our own standards of human rights. That is why I am glad you 
have had those meetings with him. I will continue to meet with 
him too. Thank you.
    Secretary Rice. Thank you.

                   ADDITIONAL SUBCOMMITTEE QUESTIONS

    Senator Leahy. There will be some additional questions 
which will be submitted for your response in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing.]
            Questions Submitted by Senator Patrick J. Leahy
    Question. What are the rules governing the use of lethal force by 
private security contractors who are paid directly or indirectly by the 
State Department?
    Answer. State Department-funded security contractors, Protective 
Security Specialists (PSS), are subject to the Department's policies 
governing the use of deadly force and Rules of Engagement developed by 
each Embassy and approved by the Chief of Mission. The Department's 
policy on the use of deadly force and Embassy Baghdad's Rules of 
Engagement are attached.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question. What happens when a private security contractor paid by 
the State Department, deployed overseas, runs over somebody with a 
vehicle, shoots an innocent person, or otherwise causes harm on the job 
or off the job? Who's responsible; are they or we?
    Answer. The U.S. Government is not ordinarily responsible for the 
actions of security contractors. For humanitarian and foreign policy 
reasons, the State Department is developing a program to make payments 
to Iraqi civilians injured by the non-negligent or negligent actions of 
private security contractors operating under Embassy security 
contracts. Initially, this program would cover official acts, with 
possible later expansion to cover unofficial acts and other 
contractors. Tort claim payments would be available, as would so-called 
condolence payments not payable in tort. Embassy Baghdad will implement 
the program using procedures derived from Department claims procedures 
and compensation values derived from Iraqi legal norms and U.S. Armed 
Forces practice.

                          SUBCOMMITTEE RECESS

    Senator Leahy. Thank you all very much. The subcommittee 
will stand in recess to reconvene at 2:30 p.m. on Thursday, May 
26, in room SD-138. At that time we will hear testimony from 
the Hon. Andrew S. Natsios, Administrator, United States Agency 
for International Development.
    [Whereupon, at 3:45 p.m., Thursday, May 12, the 
subcommittee was recessed, to reconvene at 2:30 p.m., Thursday, 
May 26.]

</pre></body></html>
